<html>
<title> - OVERSIGHT HEARING ON ELECTION DAY REGISTRATION AND PROVISIONAL VOTING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 OVERSIGHT HEARING ON ELECTION DAY REGISTRATION AND PROVISIONAL VOTING

=======================================================================

                                HEARING

                               Before The

                       SUBCOMMITTEE ON ELECTIONS

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, NOVEMBER 9, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html


                    U.S. GOVERNMENT PRINTING OFFICE
40-987                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California,             VERNON J. EHLERS, Michigan,
  Vice-Chairman                        Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                William Plaster, Minority Staff Director
                                 ------                                

                       Subcommittee on Elections

                  ZOE LOFGREN, California, Chairwoman
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California           VERNON J. EHLERS, Michigan
ARTUR DAVIS, Alabama


                     OVERSIGHT HEARING ON ELECTION
                    DAY REGISTRATION AND PROVISIONAL
                                 VOTING

                        FRIDAY, NOVEMBER 9, 2007

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10 a.m., in room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
(chairwoman of the subcommittee) Presiding.
    Present: Representatives Lofgren, Ehlers, McCarthy, Davis 
of California and Davis of Alabama.
    Also Present: Representative Ellison.
    Staff Present: Liz Birnbaum, Staff Director; Thomas Hicks, 
Senior Election Counsel; Janelle Hu, Election Counsel; Jennifer 
Daehn, Election Counsel; Matt Pinkus, Professional Staff/
Parliamentarian; Kyle Anderson, Press Director; Kristin 
McCowan, Chief Legislative Clerk; Daniel Favarulo, Staff 
Assistant, Elections; Matthew DeFreitas, Staff Assistant; Fred 
Hay, Minority General Counsel; Gineen Beach, Minority Election 
Counsel; Roman Buhler, Minority Election Counsel; and Bryan T. 
Dorsey, Minority Professional Staff.
    Ms. Lofgren. As it is 10:00, we would like to begin the 
hearing, if we could. So, good morning, and welcome to the 
Subcommittee on Elections and this hearing on Election Day 
Registration and Provisional Voting.
    Section 302 of the Help America Vote Act, known as HAVA, 
outlined the provisional balloting process, but left room for 
the States to determine the procedure. This includes who 
qualifies as a registered voter eligible to cast a provisional 
ballot that will be counted, and in what jurisdiction the 
ballot must be cast in order to be counted.
    Generally, if a registered voter appears at a polling place 
to vote in an election for Federal office, but either the 
voter's name does not appear on the official list of eligible 
voters or an election official asserts that the individual is 
not eligible to vote, that voter must be permitted to cast a 
provisional ballot.
    After the 2004 election, there were several lawsuits on 
whether a vote cast in the wrong precinct but the correct 
county should be counted. The Sixth Circuit in Sandusky County 
Democratic Party v. Blackwell held that ballots cast in a 
precinct where the voter does not reside and which would be 
invalid under State law are not required by HAVA to be 
considered legal votes. Based on the court's interpretation of 
HAVA, States have the discretion to determine how they define 
jurisdiction for the purpose of counting provisional ballots. 
However, the litigation clarified the right of the voter to be 
directed to the correct precinct to vote and have their vote 
counted as well as the right to a provisional ballot.
    While States are primarily responsible for regulation of 
Federal, State, and local elections, HAVA was an attempt to 
allow more voters to have their ballots cast. However, with 
varying State procedures on provisional balloting, some votes 
in Federal elections are being counted and others are not. And, 
according to the EAC report on provisional reporting in the 
2004 election nationwide about 1.9 million votes, or 1.6 
percent of the turnout, were cast as provisional ballots. Of 
that number, more than 1.2 million, or just over 63 percent, 
were counted.
    Directly related to provisional voting is election day 
registration, also called same-day registration. It allows 
eligible voters to register and cast a ballot on election day. 
EDR significantly increases the opportunity for all citizens to 
cast a vote. According to Demos, the 2004 presidential 
election, the seven EDR States had an average turnout 12 
percent higher than that of non-EDR States.
    The EDR has shown to have many benefits for voters. Earlier 
this fall, the subcommittee held a hearing on committee list 
maintenance, and we discussed the eligible voters who may have 
been mistakenly purged from the voting rolls. EDR provides 
those eligible voters an opportunity to vote and have their 
vote counted, instead of taking the chance with a provisional 
ballot which may not be counted.
    EDR also provides another opportunity for people who have 
not had time or have just become eligible and who have missed a 
longer deadline or maybe just forgot to register to vote. And 
beyond this, EDR leads to the enfranchisement of voters who 
have recently moved and lower income voters. In States where 
EDR is in place, it has resulted for lower costs for election 
administrators because it eliminates the need for provisional 
balloting.
    Election day registration, however, is not without 
criticism, particularly over whether allowing voters to cast 
ballots on the same day they register fails to provide adequate 
security and whether this allows for voter fraud. So I look 
forward to the testimony from Demos and from the other 
witnesses. Demos has done a study of the nearly 4,000 news 
reports for the six EDR States over three Federal election 
cycles, and found only 10 discrete instances of potential 
fraud. Of course, there was only one case of voter 
impersonation at the polls.
    Our witnesses today will discuss the pros and cons of 
election day registration and provisional voting. The panels 
provide a State and local view of how these affect voter 
participation and administration, as well as academic and 
advocacy insights into these two issues.
    [The statement of Ms. Lofgren follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.001
    
    [GRAPHIC] [TIFF OMITTED] T0987A.002
    
    Ms. Lofgren. I would now like to recognize our ranking 
member, Mr. McCarthy, for any opening statement he may make.
    Mr. McCarthy. I thank you, Madam Chair. And I am excited 
about continuing along these lines that we are continuing to 
look at how people are allowed to vote in America. And the one 
thing that we do want to always make sure is that we have the 
ability to make it accessible to everyone. We want to make sure 
we have checks and balances.
    And as this committee continues to look at this, I continue 
to ask that we make sure we gather all information from all 
sides. Because, as you said in your opening statement, same day 
voter registration, some States have it.
    There are criticisms on both sides of the aisle. And one 
thing that I think we are held accountable to as Members is 
making sure we gather all the information, and that is why I 
continue to ask that, as we move forward, that we don't limit 
the number of people that can have witnesses here, that we make 
sure we have a fair and balanced approach, one that has views 
from all sides so we are able to gather all the information 
before we make a decision.
    Unfortunately, though, again, this committee has shifted 
from the past history and tradition of being equal on that 
basis and the witnesses have not been equal. So I would like to 
submit under House rule XI a minority hearing so we can 
continue to gather information.
    [The following information was subsequently withdrawn by 
Representative McCarthy. See page 189 of transcript.]
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.003
    
    Ms. Lofgren. I will accept this, and it will be dealt with 
under the rules. I will note for the record that we did approve 
a 6-4 witness ratio for this hearing, but the minority only 
brought 3 witnesses, so there is nothing I can do about that.
    Mr. McCarthy. Madam Chair, that would be the first time I 
have heard of more than three witnesses being approved.
    Ms. Lofgren. I did that personally earlier this week.
    Mr. McCarthy. I would, one, want to thank you for that. 
Two, I would like to meet with you afterwards then, because I 
did not have knowledge of that and I am being told by my staff 
they didn't. So I would, one, want to thank you for the 6-4, 
and continue to ask that we keep a tradition of the 109th 
Congress that we actually have 6-6. But thank you for 
increasing to 6-4.
    Ms. Lofgren. As I said, I don't want to delay this because 
we do have a room full of witnesses and the public. I have 
always been available for a discussion and would welcome one at 
any time, but not at the hearing.
    And now I would like to recognize our first two witnesses. 
We have two Members of Congress.
    First, we have Keith Ellison from Minnesota. Congressman 
Ellison is a newly elected Member of Congress representing the 
Fifth Congressional District of Minnesota, which includes the 
City of Minneapolis and the surrounding suburbs. He previously 
served two terms in the Minnesota State House of 
Representatives, and while in the State legislature he served 
on the Public Safety, Policy, and Finance Committee and the 
Election and Civil Law Committee. Representative Ellison now 
serves on the Financial Services and the Judiciary Committee, 
along with me.
    We welcome his testimony today. And, of course, he is the 
author of the bill to provide for same-day election day 
registration.
    We also have Steve King of Iowa. Congressman King was 
elected in 2002 to represent Iowa's Fifth Congressional 
District. He serves on the House Small Business Committee, the 
Committee on Agriculture, and he is also a member of the House 
Judiciary Committee, serving on the Constitution and 
Immigration Subcommittees. As a matter of fact, he is the 
ranking member of the Immigration Subcommittee, which I chair. 
Prior to joining Congress, he served in the Iowa State Senate 
for 6 years, where he assumed roles as chairman of the State 
Government Committee and vice chairman of the Oversight Budget 
Committee.
    And we welcome both of you today. You know the drill. Both 
of your statements are made part of the official record. We 
would ask you to limit your oral testimony to about 5 minutes.
    And we will begin with you, Mr. Ellison.

   STATEMENT OF THE HON. KEITH ELLISON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Ellison. Let me start by thanking you, Madam Chair, and 
the Ranking Member McCarthy for holding this important hearing 
on election day registration and provisional voting. Madam 
Chair, I would also like to thank your staff and the House 
Administration staff as well as my own staff who have done an 
excellent job preparing for today.
    I would also like to acknowledge the presence of Minnesota 
Secretary of State Mark Ritchie, who is here to testify, and of 
course our former Minnesota Secretary of State, Mary Kiffmeyer, 
who is also here, and I thank them both for being here.
    I am honored to be here to discuss the importance of 
election day registration. Madam Chair, I am also committed and 
passionate about election day voter registration, and I am so 
committed to it that I introduced H.R. 2457, the Same Day Voter 
Registration Act of 2007. We have 41 cosponsors. My 
distinguished predecessor, Martin Sabo, championed this 
legislation in years past, and I am honored to continue that 
tradition, and I feel we have made some important progress in 
our effort to extend voting rights to all Americans.
    My home State of Minnesota has been a national leader when 
it comes to elections and election administration. We 
consistently rank in the top nationally in voter turnout. For 
example, in the 2004 presidential elections 78 percent of 
eligible voters in Minnesota cast a ballot. This is more than 
18 percent higher than the national average. In 1998, a 
nonpresidential year, there were nationally only 30 to 35 
percent of eligible voters who cast a ballot. Voter turnout 
topped out more than 60 percent.
    Additionally, when it comes to election administration, 
Minnesota consistently conducts one of the most efficient, 
fraud free and error free elections time and time again. And 
though I do believe some share credit--many people share credit 
for Minnesota's national leadership on elections, credit needs 
to go to committed public servants like Mark Ritchie and 
several local officials who manage these elections.
    Minnesota laws, like the same day voter registration 
statute, have contributed to this stellar national reputation. 
My home State enacted same day voter registration about almost 
25 years ago.
    Since the right to vote is such an important and 
fundamental right, I believe the right to vote should not be 
conditional on any ability to navigate bureaucracy or to meet 
artificial and arbitrary deadlines.
    America, Madam Chair, has consistently moved towards voter 
access throughout its entire history: The 13th amendment 
striking down involuntary servitude; the 14th amendment, which 
actually incentivized voter participation of the newly freed 
men; and of course the 15th amendment, which allowed for 
universal male suffrage.
    Of course, America wasn't done yet. The 19th amendment 
allowed universal adult suffrage when it included and 
recognized the right of women to vote in 1920.
    But of course it didn't stop there. The 24th amendment 
banned the poll taxes and other taxes associated with being a 
barrier, a financial barrier to voting.
    But then, in 1965 we saw the Voting Rights Act, which for 
the first time really struck down all the tools, devices and 
tricks that eliminated people from voter participation.
    And then of course in the 1970s we lowered the voting age 
to 18 years old.
    Madam Chair, I believe that EDR is a logical extension of 
America's ever increasing desire to see more and more people 
express their view as to who should represent them in this 
great representative democracy. I strongly encourage colleagues 
in Congress to follow the lead of States like Minnesota to 
enact same day voter registration.
    Let me conclude by quoting from a New York Times op ed 
piece written by a Republican and Democratic Secretaries of 
State of Ohio and Maine. The quote is as follows: Though one of 
us is Republican and the other is a Democrat, we can attest 
that political affiliation isn't relevant here. This is a 
policy election day registration that is good for voters 
regardless of party and good for our democracy. When it comes 
to elections, America is best served when all eligible voters 
cast ballots, even those who miss the registration deadline.
    And I might add, Madam Chair, that in my own State of 
Minnesota we have seen Republican Governors elected and 
reelected. We saw an Independent Party Governor, Governor 
Ventura, elected. We have seen Democratic Governors elected. 
And we have seen both houses shift back and forth. Same day 
voter registration doesn't favor a party, it favors voters.
    Madam Chair and members of the committee, I could not agree 
more with both the Republican and Democrat Secretaries of State 
of Idaho and Maine.
    Thank you so much for the opportunity to testify this 
morning.
    Ms. Lofgren. Thank you very much, Mr. Ellison.
    [The statement of Mr. Ellison follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.004
    
    [GRAPHIC] [TIFF OMITTED] T0987A.005
    
    Ms. Lofgren. Mr. King.

STATEMENT OF THE HON. STEVE KING, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF IOWA

    Mr. King. Thank you, Madam Chair and Ranking Member 
McCarthy. I appreciate these hearings today. And I listened 
carefully and attentively to the gentleman from Minnesota's 
testimony, and I want to commend him for taking an initiative 
on something he believes in, in fact to the point where we had 
a conversation about these bills. And that I think was when the 
gentleman from Minnesota became aware that I have taken an 
entirely different position on this 180 degrees off. And I 
would like to just take, if I could, the committee back through 
some of those points that brought me to the position that I 
have taken, and that is the 2000 elections.
    This Nation and the world stood transfixed wondering who 
would be the next leader of the free world. All eyes went to 
Florida. We watched it 24/7. I was for 37 days investigating 
the things that were coming up as allegations in Florida and 
the challenge as to what would be counted as a legitimate vote 
and what would not be counted as a legitimate vote.
    At the time, I was the chairman of the Iowa State 
Government Committee, and I knew the responsibility fell to me 
to make any changes in the Iowa law if we were going to avoid 
ever becoming a State in the position that Florida was in. And 
while those 37 days unfolded, some say 36, it was 37 for me, I 
chased down every rabbit trail on the Internet that I could 
find for voter integrity, ballot integrity, and examined this 
thing from a constitutional perspective, an historical 
perspective, and also from the statutory perspective.
    I believe in the concept of federalism. This is something 
that we have left to the State. But the question that hangs out 
here for anyone who takes a side on federalism, and that being 
the States rights component of this, you still have to ask the 
question: But for 527 votes in Florida, there would be a 
different leader of the free world probably today. That changes 
history. And this Nation is susceptible to decisions that are 
made within the State.
    Now, we are here talking about Federal legislation, but I 
came to this conclusion that there was significant fraud taking 
place in many places across the country. There was plenty of 
evidence of that in different areas. I came to the conclusion 
that we needed a voter registration list in each of the States 
that would be free of duplicates, deceased, and, where the law 
applies, felons, and that we need to verify that the people 
that showed up to vote under the name that they alleged that 
they had actually could prove that they were that person. That 
means a picture ID. And, I believe that they should be citizens 
and they should verify that they are citizens.
    I would ask that the Secretary of State of each of the 
States certify the citizenship of the people on the voter 
registration roles. I think that the lists should be sorted and 
crunched, and the most recent registration be the one retained, 
and the duplicate registrations that might be in multiple 
precincts or multiple counties or multiple States eventually 
would be purged.
    That is my view, because 527 people in Florida selected the 
leader in the free world. When they did that, if there had been 
just that many that cast illegitimate ballots and canceled out 
the legitimate ballots that made that difference. It is as 
egregious to have a legitimate ballot canceled out as it is to 
tell someone who is legitimate that they can't vote. And I ran 
into protection for opportunities for fraud.
    And so as I look at this legislation, and I am opposed to 
motor-voter, by the way, because that brings in people that 
aren't citizens and brings in people that aren't legitimate to 
vote in those precincts. But it gives them that opportunity 
that, here is your driver's license, and now how would you like 
to register to vote? The implication is that you are a citizen. 
And I know that there are restraints on perjury charges, but 
that isn't something that we have seen people use.
    So, as I look down through this list of things; if someone 
shows up to vote same day registration and their ballot goes 
into the pot with everyone else and it is not a provisional 
ballot, you have no way to correct the inequity that is there. 
So I would say, first of all, if this legislation is to be 
approved, it should be provisional ballots only for same day 
registration.
    I would also point the cause out here to say that you do 
not have to produce an identification. You can walk in then and 
allege to be anyone and no one can challenge who you are and 
you are allowed to vote.
    So, the limitations that we would have left if the Ellison 
legislation is approved is any willing voter, any willing 
traveler-voter can vote in any precinct they choose under an 
unchallenged ballot, one that is not provisional that goes 
right into the count with everyone else. And there is no way to 
verify then. And if we lose our electoral process, we have to 
have the maximum amount of integrity here, and this is 
something that I would be willing to take significant political 
loss on policies and issues that I care a lot about in order to 
preserve this constitutional republic that depends, for 
Democrats and Republicans, upon the integrity of the electoral 
system.
    We have seen the acrimony that came out of the questions in 
Florida, and yet I haven't seen the evidence that there was 
anything other than the appropriate result in those 2000 
elections. But if we lose our faith in our electoral process, 
if we fail to maintain the integrity that the American people 
will demand of us, our electoral system will collapse around 
us, and neither Republicans nor Democrats will be standing when 
the dust settles.
    So I want the maximum amount of integrity. I want to 
preserve this system no matter who it advantages, Republicans 
or Democrats. It is more important we preserve our 
constitutional republic.
    I conclude my oral testimony. Thank you, Madam Chair.
    [The statement of Mr. King follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.006
    
    [GRAPHIC] [TIFF OMITTED] T0987A.007
    
    [GRAPHIC] [TIFF OMITTED] T0987A.008
    
    Ms. Lofgren. Thank you very much, Mr. King and Mr. Ellison. 
I am advised that we will have votes at about 10:30, so we will 
have time to throw a couple questions to our colleagues now, if 
we wish, and then we will come back for the other two panels.
    Mr. McCarthy.
    Mr. McCarthy. Thank you, Madam Chair.
    One, I want to thank both panels. This is what I always 
envisioned. Before I gather information, I want both sides. 
And, Mr. Ellison, I respect both opinions, Mr. King, you want 
to make it easier for voters to be able to go vote. Mr. King's 
concern is you want to make sure that there is integrity in the 
election system. So, really, that is what I want to be able to 
gather. I have a belief in both of you, and so I want to find 
how we can make it that we get the voters to the polls but at 
the same time we have trust in what elections are held.
    Now, you want to take this nationwide. And I will tell you, 
as we have gathered information here on other bills, we had the 
Secretary of State from Vermont here talking about absentee 
ballots. In Vermont, they don't even check your signature. And 
her answer to me was: We trust everybody. We know everybody. 
That may work in a very small State. I have concerns with that. 
But putting things nationwide, I have great concerns.
    One question I have for you, Mr. Ellison. If you vote, and 
you have to vote to register that same day inside your bill. Is 
that correct? First. And then, secondly, would you be open to 
making that a provisional ballot? Because once you put that 
into the mainstream, the ballot into the box, there is no way 
of checking how that person voted. There is no way of checking 
if there is any concerns or questions. That would be my first 
question to you.
    Mr. Ellison. Well, first of all, let me make sure I 
understand what you are asking me. You are saying that you are 
asking if someone wants to engage in same day voter 
registration, would they be expected to register and vote on 
the same day?
    Mr. McCarthy. The way I read your bill, if you want to 
register that same day, you have to vote. Am I reading it 
wrong?
    Mr. Ellison. I don't think you would be required to vote. I 
think that you could--but you certainly would show up to the 
polls in order to register to vote. So I think people would be 
expected to vote and people would be expecting to vote. And I 
would bet that people who show up would be there to vote. But I 
don't read a fundamental requirement that you must vote if you 
register on that day. In order to participate in that election, 
you have to register in that vote.
    Mr. McCarthy. So you don't have to vote if you register 
that same day, on your bill?
    Mr. Ellison. So basically you want to know, can you go in 
and just register and then walk away?
    Mr. McCarthy. Yes.
    Mr. Ellison. I think a person could register to vote at any 
time during the year to register for that election. To be able 
to vote in that election, you would be expected to vote on that 
day. But I don't think you would necessarily have to.
    Mr. McCarthy. Now, what about that person voting a 
provisional ballot instead of voting a regular ballot?
    Mr. Ellison. I would not favor that, because I think we 
have other protections to make certain that the person is who 
they say that are. Now, remember, there has been talk about 
photo IDs today. That is not what we are talking about here. 
When you register to vote, when you register, not cast a ballot 
but register, you would have to--and the State, there is 
nothing in this bill to prohibit the State to require that you 
identify yourself with valid identification in order to 
register to vote.
    Mr. McCarthy. Now, I know we are not talking about your 
other bill. But you have introduced another bill, 4026, that 
prohibits election officials from requiring an ID.
    Mr. Ellison. Right.
    Mr. McCarthy. I only bring that up because later that could 
come into play here. Are you familiar within Milwaukee on their 
same day registration where they had a task force. And I don't 
know, in Minnesota you say there hasn't been any concerns and I 
haven't found any yet, but in Milwaukee they had the FBI, the 
chief of police, and they found 1,300 same day registrations 
that were cast with problems. They found 141 that weren't even 
inside the city. And I get concerns when you go statewide.
    What checks and balances do you have in Minnesota in this 
provision that you go forward now?
    Mr. Ellison. Well, Minnesota has a long reputation of 
having good clean elections. I think that you will hear that 
from the former Secretary of State and the present one who will 
testify today. But if you vote, if you fraudulently vote in 
Minnesota, that is a felony offense. That subjects you to 
serious criminal penalties, something that just people don't 
do.
    Also in Minnesota, we have provisions to challenge people. 
So if you have substantive information that the person is not 
who they say they are, there are provisions for challenges.
    Mr. McCarthy. But if you challenge somebody, how do you 
find that ballot of what they voted? Because if you do 
provisional, it is off to the side. If you let them have the 
exact same ballot when they are going in the same day and you 
find the 141 or the 1,300, there is no way of knowing which 
ballot was there or how they voted. So I am just wondering, 
from a checks and balance point, how do you answer that 
question?
    Mr. Ellison. Well, the fact is, is that we have--it is a 
crime to do. We have people who did challenge you. You have to 
sign, you have to swear under penalty of perjury. And the fact 
is, I can tell you that our track record has been excellent. 
And so it is what we have been doing has been working. I mean, 
if the proof of the pudding is in the tasting, elections in 
Minnesota taste pretty good.
    Mr. McCarthy. Just a quick second, yes or no. Would you be 
open to, if you moved your bill forward, amending it that at 
the beginning you make these individuals vote provisional to 
make sure these checks and balances were there?
    Mr. Ellison. Well, let me say this, Representative. I am 
one who never says we won't talk, but I don't think I would 
agree to that provisional provision.
    Mr. McCarthy. Thank you for your time.
    Ms. Lofgren. I would just like to ask Mr. Ellison about, 
you have got a real experience here in your State in the whole 
issue of voting, lots of times various hints of there is fraud. 
But I would like to just take a look at, have there been any 
prosecutions? Because that is the real proof. I remember going 
to a hearing a year ago in August and all these wild comments 
about it. But there has been no prosecutions. So the proof is 
in the pudding. And what has been your experience in Minnesota? 
Has anybody been prosecuted for fraud associated with this?
    Mr. Ellison. Madam Chair, I cannot report any known cases 
of convictions for election fraud. Now, we do have two 
Secretaries of State coming behind me.
    Ms. Lofgren. I will ask them, too.
    Mr. Ellison. But I will just tell you that I am not 
inexperienced on this. I have researched this. I have looked 
into this carefully. And I have a close friend who some of my 
Minnesota colleagues know very well; his name is Pat Diamond. 
He is a tough prosecutor. He will charge you and toss you in 
jail if you violate the law. And Pat Diamond, who is a 
prosecutor in Hennepin County, he has told me that he has never 
prosecuted an imposter voter case. This just hasn't happened. 
And this is a gentleman who takes his role as a prosecutor 
extremely seriously.
    So I would like to know, but--so I guess the answer is no. 
But there are better minds than mine here.
    Ms. Lofgren. Now, what has happened to turnout in 
Minnesota? Usually the problem is not one where people are 
trying to fake it to vote, it is to try to get people to vote. 
What has turnout been?
    Mr. Ellison. Madam Chair, we have trouble getting people to 
vote one time let alone two. But the fact is, voter turnout in 
Minnesota is excellent. 78 percent.
    Ms. Lofgren. 78 percent.
    Mr. Ellison. We have experienced very high voter turnout. 
We did have high voter turnout in the early years, 50s, 60s, 
then it dipped. And since we enacted voter EDR, it dramatically 
came back up to a point where we are real happy about.
    Ms. Lofgren. Now, I remember the election of Governor 
Ventura, I mean just reading about it. But it seemed to me from 
the press reports that that just took off at the end, and that 
it was people who had not been registered voters but who got 
excited by his campaign after the registration would have been 
over who actually decided to come forward; that he had touched 
something in them and surprised the whole country that this guy 
who no one thought was going to win won. Was that, do you 
think, because of election day registration?
    Mr. Ellison. Yes, I do. And I think it is a very good 
thing. I think it is important to leave alone what kind of 
Governor people thought Governor Ventura made.
    Ms. Lofgren. It is up to the voters in Minnesota to decide, 
not me.
    Mr. Ellison. But they expressed a preference. Students 
expressed a preference. People who had moved had expressed a 
preference. I think that if what we are trying to do is most 
closely approximate how people really feel, that EDR brings us 
very close to that. Because of course, as you know, Madam 
Chair, there is a lot of voter information that comes through 
in the last days of the campaign. You know, people may not 
focus, people are busy. But in that last month of the campaign 
where an artificial deadline may cut you out, you can still 
listen, read, focus, hear debates, and really make up your mind 
as to who you want to vote for.
    Ms. Lofgren. I am going to yield back my time because we 
are being called to votes and I want Mr. Ehlers to have his 
chance to ask questions before we run off to vote.
    Mr. Ehlers. Thank you, Madam Chair.
    Just in response to a previous question-and-answer 
interchange with Mr. McCarthy. As I read the bill, you say: On 
the date of the election, the polling place may not make 
services available under this section to any eligible applicant 
who does not cast a ballot.
    So, basically, you are saying if they register they have to 
vote. Or, in other words, they are not even going to be 
registered if they don't agree to vote.
    Mr. Ellison. Well, Mr. Representative, I read it a little 
bit differently. I don't think this is the most critical part 
of the bill.
    Mr. Ehlers. I agree. And I don't think--that is not a major 
matter. I am just pointing out it is in your bill.
    Mr. Ellison. Yeah, it is in my bill and I am familiar with 
that section. The way I read that is if you want to vote in 
that election that day, then registering that day makes you 
eligible to vote in that election for that day. But I think 
that if you wanted to register to vote the next day, the day 
after election, I don't see any rules that would say you 
couldn't fill out a voter application to register to vote.
    Mr. Ehlers. I just wanted to try to clarify that issue.
    I was born in Minnesota, southwestern Minnesota.
    Mr. Ellison. Congratulations.
    Mr. Ehlers. Thank you. It has made me what I am today, a 
good solid Republican. Seriously. I grew up in Edgerton, a very 
fine town. Everyone knew everyone, very little crime. There was 
some crime. But I think same day registration would work there 
easily because everyone knew everyone, and maybe that is what 
you are referring to. But I refuse to believe that there are no 
criminals in Minnesota, and that no one might try to take 
advantage of this.
    Even if there weren't, we are talking about Federal 
legislation. And the history of our country, frankly, a 
shameful history, is that in certain areas of the country there 
is considerable dishonesty in elections. And in this particular 
issue, and I totally agree with Mr. King on this, this creates 
incredible opportunities for mischief and, frankly, for 
breaking the law.
    We are all familiar with Tammany Hall, the Pendergrass 
machine, the Daley machine. You can go on and on. They 
certainly played every trick in the book. And same day 
registration has the potential for doing that, unless the 
ballot that the person casts is a provisional ballot so in case 
they are breaking the law by what they have done, then you can 
discard their ballot and no harm is done.
    If you allow the ballot to be tossed in the hopper and 
counted, you have done permanent damage. You have cheated the 
public of a fair election. And I think the key factor of same 
day registration is to make certain that it is a provisional 
ballot.
    Related to this of course is the requirement that we passed 
with HAVA that every State has to establish a statewide voter 
database to keep track of registrations and so forth. That is 
essential to determine if someone, regardless of whether they 
are registering the same day or not, are voting twice.
    And so, I just have experienced and seen enough fraud 
around the country that I am very worried about adding 
something that would make fraud easier for those who are 
dishonest. It also, what you are proposing, makes voting easier 
for those who are honest. And I don't object to that, really, 
but you have to protect against fraud if you are going to 
provide extra opportunities for fraud, which is what your bill 
does. And I think we have to be very, very careful about that.
    If we are going to try to make this a national issue 
instead of an issue State by State, where all the good people 
of Minnesota who by and large obey the law and wouldn't do 
anything wrong, I am very worried about passing a law that is 
going to apply everywhere in the country, where there is plenty 
of chance for mischief and downright dishonesty.
    I would appreciate your comments.
    Mr. Ellison. May I comment very briefly, Madam Chair? Let 
me say this very quickly. The people who live in a precinct, 
even if you live in an urban area, it is like a small town. For 
example, there might be just one building that people vote at 
and that is like the whole precinct. So even though it is an 
urban area, it is a closely knit unit that people are voting 
in. So there really is quite a substantial amount of that small 
town atmosphere. People know each other.
    So I think we have probably got a vote. But I do appreciate 
your question.
    Mr. Ehlers. Well, I would hate to depend on that, simply 
because I live in a relatively small urban neighborhood, and I 
have served in local government, I know a lot of people. But 
when I go to the precinct to vote, I see a lot of people there 
I don't know. And when I talk to the election clerks, they see 
a lot of people they don't know. And so I think caution is best 
in a situation like this.
    As Mr. King said, we really have to guarantee the purity of 
the ballot to reassure the voters that the result is accurate 
and that it follows the intention.
    Ms. Lofgren. The gentleman's time has expired. And we have 
been called to vote. So I will recess the hearing now, thanking 
both of our colleagues for their testimony. We will return as 
soon as votes are done and commence with the other two panels.
    [Recess.]
    Ms. Lofgren. I am sure that the Ranking Member is on the 
way back. Under the rules we can proceed when we have two 
members. But I am going to begin because we have more votes in 
an hour, and we can start introducing now, while Kevin is on 
his way.
    I would like all the members of the next panel to come 
forward. And I am searching for my introduction here. We have 
three witnesses before us. We have the Honorable Mark Ritchie, 
who is currently serving as Minnesota Secretary of State, where 
he is the State's chief elections officer. Mr. Ritchie has made 
many contributions to improving civic participation in the 
electoral process, including his leadership of National Voice, 
a national coalition of over 2,000 community-based 
organizations working together to increase voter participation. 
Mr. Ritchie was able to lead this organization in registering 
over 5 million new voters nationwide, one of the largest 
nonpartisan voter mobilizations in our Nation's history.
    Next we have Mr. Tim Moore. Mr. Moore currently serves as a 
representative in the North Carolina House of Representatives. 
He was first elected in 2002, and now serves as chairman of the 
Committee on Elections Law and Campaign Finance Reform 
Committee. Mr. Moore is also an attorney with the law firm of 
Flowers, Martin, Moore & Ditz.
    And finally, we have Mr. Neil Albrecht, who is the 
Assistant Director, City of Milwaukee Elections Commission. He 
has been the Deputy Director for the city of Milwaukee's 
Election Commission since July of 2005. His focus in this 
position has been on the full implementation of system 
improvements identified by the Milwaukee Task Force on 
Elections. He is a lifelong resident of the city of Milwaukee 
and has a professional background in finance and nonprofit 
management.
    And we do thank all of you for coming today to share your 
insights with us.

STATEMENTS OF HON. MARK RITCHIE, SECRETARY OF STATE, MINNESOTA; 
 HON. TIM MOORE, NORTH CAROLINA STATE REPRESENTATIVE; AND NEIL 
   ALBRECHT, ASSISTANT DIRECTOR, CITY OF MILWAUKEE ELECTION 
                           COMMISSION

    Ms. Lofgren. And if we could, we will begin with Secretary 
of State Mr. Ritchie. Welcome.
    Let me just interrupt and note that your full written 
comments will be made part of the official record of this 
hearing. We do ask that your oral testimony consume about 5 
minutes. And that little machine there has lights. And when the 
yellow light goes on it means that you have consumed 4 minutes. 
It is always a surprise. And when the red light goes on it 
means you have actually spoken for 5 minutes. We would ask you 
to try and summarize at that point so that we can hear 
everybody. Mr. Ritchie. There is a little button. There we go.

                 STATEMENT OF HON. MARK RITCHIE

    Mr. Ritchie. Chairwoman Lofgren, Representative Davis, 
thank you for this opportunity to present testimony on election 
day registration. When I began the process of running for the 
office of Secretary of State, one of the first persons I sat 
down with and asked his support was the Secretary of State of 
Minnesota, who was serving in that position when I came of age 
when they lowered the voting age, Arlen Erdahl. Arlen Erdahl 
had been a Congressman, a Republican Congressman from 
Minnesota, had come back to Minnesota, was Secretary of State 
when Election Day Registration was passed and implemented in 
our State. He gave me an amazing history of the process, 
particularly pointing out the problems that were being solved 
at that time by making that change. But he also urged me to go 
meet with and talk to all of our 87 county election officials 
and to get their point of view, because, as he said, county 
election officials, city election officials, that is where the 
rubber hits the road. If you want to know about Election Day 
Registration, its benefits, and how it functions, go talk to 
those officials.
    So I did. And in meeting around the State--and I have met 
with all 87--I heard four consistent themes about election day 
registration in Minnesota. So this is based on 34 years of 
experience. And some of these election officials have been in 
their jobs for most of that time.
    Number one, it clearly has increased turnout, but it has 
been especially important for increasing turnout for young 
people. Minnesota was on a decline from 1956 to the early 
1970s, and with the introduction of the 18-year-old voting in 
this country, another hit on participation. But we passed 
Election Day Registration at roughly the same time. And so we 
have been able to build up over the past few years so that we 
are top in the Nation, but especially we are proud of the fact 
that it brings in young people. In fact, Election Day 
Registration has been shown to have about twice the positive 
impact on bringing young people into the process as older 
adults.
    The second thing that election officials pointed out is 
that this has largely eliminated the disputes, the problems, 
the mistakes. It just made election administration much easier 
and much cleaner, much less expensive, and allows election 
officials to do their job better.
    Third, it is a much more accurate and secure system. You 
are registering somebody in person. They are standing in front 
of you instead of a form received in the mail. If there is some 
error in the registration form, hard to read, poor writing, 
some missing information, you can correct it right there on the 
spot. And we have a whole series of safeguards, including 
requiring our proofs, our oaths. We have provisions for 
challenging. And of course we have criminal prosecution for 
anyone who is lying under oath. So we feel like it has been a 
much better and more accurate and secure system.
    And finally, since most of the same-day registrations are 
simple address changes, we also think that there are some ways 
to, you know, make this great system even better in the future. 
And so we are looking forward on that.
    I took their comments and their suggestions to heart in my 
campaign and now that I am in this position, and Minnesota is 
going to be an even better and stronger participant in the 
Election Day Registration process. But what I have noticed is 
that many other states are very interested because they have 
the problems of provisional ballots and other problems. They 
are asking us for our advice, for our help.
    Many other States have come to visit Minnesota to look at 
our system. I always have those visitors meet with local 
election officials because those are the folks who really know 
how the system works. They have seen every problem, every 
unusual situation, and they have tackled those very well. And 
so Minnesota at this point is a state where this system works 
for us and it works well.
    In the closing of Congressman Ellison's comments this 
morning he quoted from my colleagues, the Secretaries of State 
from Idaho and from Maine, about how this is not a partisan 
issue, this is an issue that is in favor of voters. And I want 
to underline that. Our 87 county election officials are very, 
very fiercely independent, and they range from all spectrums of 
the political climate in Minnesota, and they all feel strongly 
that this is a great system. Our 34 years of history gives us 
great confidence. And we are very happy to see this idea being 
adopted in other States, and potentially at the national level.
    Madam Chairwoman, thank you again.
    Ms. Lofgren. Thank you very much, Mr. Ritchie.
    [The statement of Mr. Ritchie follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.009
    
    [GRAPHIC] [TIFF OMITTED] T0987A.010
    
    [GRAPHIC] [TIFF OMITTED] T0987A.011
    
    [GRAPHIC] [TIFF OMITTED] T0987A.012
    
    Ms. Lofgren. I see that our colleague Mr. Ellison has 
joined us. And by unanimous consent we will invite him to 
participate with us. And we are now joined by our Ranking 
Member, Mr. McCarthy, time for Mr. Moore's testimony. Proceed, 
please.

                  STATEMENT OF HON. TIM MOORE

    Mr. Moore. Thank you, Madam Chair, Ranking Member McCarthy, 
members of the committee. It is really an honor to be here 
today speaking before this committee both as a citizen and as a 
member of the North Carolina State House of Representatives. I 
am here today because our General Assembly recently this past 
session enacted same-day voter registration in North Carolina 
through the enactment of House Bill 91. I opposed that measure 
in the General Assembly because I felt like there were real 
concerns with a number of issues to protect against voter 
fraud, and that we failed to fully address that.
    Support for same-day voter registration is, of course, 
based upon the noble intention of increasing voter turnout. But 
I don't think any member of this committee or this Congress 
would also doubt that we also have to be equally vigilant not 
only about voter turnout, but accuracy and legitimacy in the 
elections to prevent against fraud.
    This process first started actually--or this past week, the 
elections which were held for a lot of municipal elections is 
the first time same-day voter registration has occurred in 
North Carolina. The data I have seen thus far indicates that it 
has not had an impact on the voter turnout. So I guess that 
remains to be seen, and the canvass has yet to occur, and that 
will be fleshed out in the coming weeks. But at least 
tentatively at this point, the data does not show there was an 
increase in turnout, at least in North Carolina, in the 
municipal elections.
    But same-day voter registration does have the very real 
potential to decrease confidence in the elections, particularly 
if there are increases in the amount of fraud. And I will point 
out two examples to kind of show it.
    I suppose if the only goal was to increase voter turnout, 
we could take a cardboard box, cut a hole in it, and put it on 
the street corner and leave it there for a couple days and come 
back and pick it up. You would probably have an increase in 
voting in that precinct. But it is obvious what the concerns 
for fraud would be. Someone could stuff the ballot box or 
anything. There are other ludicrous examples where you could 
require fingerprint ID or something like that. The point is 
there has to be a balance struck between voter security and 
between ease of voting.
    It is my concern that same-day registration at the State 
level, and particularly with the Federal bill, tips that 
balance dangerously away from ensuring accuracy and fairness of 
the voting.
    The bill that is before Congress is similar in some ways, 
but different in one. One thing I would stress, one difference 
I would stress, is the fact that in North Carolina the ballots 
are provisional ballots. They are retrievable ballots. So if 
there is a challenge to fraud it can be retrieved. But the 
issue of voter I.D. really dovetails with this, because if we 
are going to increase the opportunity for voter registration, 
and, at the same time, decrease the period of time that the 
Board of Elections would have to ensure the accuracy and verify 
the eligibility of the voter, we need to find ways to enhance 
the security component.
    I have supported, or I ran an amendment in North Carolina 
to our bill to add photo I.D. That bill did fail along partisan 
lines, unfortunately. But I would encourage Congress, if you 
pass this, that you implement at least a photo I.D. component. 
Because the types of I.D. that HAVA sets forth right now are 
things that are very easy to fabricate, such as a power bill, 
and very difficult to verify.
    The allegations as to past fraud, I think in some ways 
those may be understated. History is full of examples of where 
fraudulent conduct has affected elections. And any time we are 
going to expand the opportunity for that to occur, we need to 
put in place those protections.
    Additionally, North Carolina, like many other States across 
the Nation, has seen a huge growth in population, some of those 
being illegal foreign nationals. In fact, some estimates in our 
State estimate that as many as a half million members of our 
new population are folks who are here illegally. By getting rid 
of the period of time that the Board of Elections has to verify 
the eligibility, we increase the opportunity that we could have 
those who aren't even citizens voting. So again, I think the 
photo I.D. component would be very important.
    We did at the State level find some examples of voter fraud 
that were discussed on the floor. One where a person went to 
vote, or went to vote on election day, and then discovered 
someone had voted in their place on the early day. They were 
disenfranchised. There were several examples of where dogs had 
registered to vote. I think one dog even got some votes. I 
don't think they voted. But it does appear that there is an 
issue and that there has to be a way to strike the balance.
    And in sum, I will say this. I do think that this also is a 
State issue as to election administration. I am all for finding 
ways to increase voter turnout and participation. One thing 
that I would recommend Congress look at doing is finding ways 
to ensure that the ballots of our military personnel who are 
overseas are counted. I am aware there are some problems with 
some logistical issues getting those back and forth. I would 
hope Congress would look at ways to address that. But I do 
appreciate your time, Madam Chair, and members of the 
committee.
    Ms. Lofgren. Thank you very much, Mr. Moore.
    [The statement of Mr. Moore follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.013
    
    [GRAPHIC] [TIFF OMITTED] T0987A.014
    
    [GRAPHIC] [TIFF OMITTED] T0987A.015
    
    [GRAPHIC] [TIFF OMITTED] T0987A.016
    
    [GRAPHIC] [TIFF OMITTED] T0987A.017
    
    [GRAPHIC] [TIFF OMITTED] T0987A.018
    
    [GRAPHIC] [TIFF OMITTED] T0987A.019
    
    [GRAPHIC] [TIFF OMITTED] T0987A.020
    
    [GRAPHIC] [TIFF OMITTED] T0987A.021
    
    [GRAPHIC] [TIFF OMITTED] T0987A.022
    
    [GRAPHIC] [TIFF OMITTED] T0987A.023
    
    [GRAPHIC] [TIFF OMITTED] T0987A.024
    
    [GRAPHIC] [TIFF OMITTED] T0987A.025
    
    [GRAPHIC] [TIFF OMITTED] T0987A.026
    
    Ms. Lofgren. And our last witness on this panel is Mr. 
Albrecht. And we would be pleased to hear from you.

                   STATEMENT OF NEIL ALBRECHT

    Mr. Albrecht. Good morning, Madam Chairwoman, and members 
of the committee.
    Ms. Lofgren. Can you pull the microphone a little bit 
closer? Maybe it is not on. There is a button you have to--
there you go. Thank you.
    Mr. Albrecht. Good morning, Madam Chairwoman, and members 
of the committee. Thank you for this opportunity to represent 
the city of Milwaukee in this discussion. My name is Neil 
Albrecht, and I am the Deputy Director of the city of Milwaukee 
Election Commission. My purpose in testifying this morning is 
to speak to Milwaukee's positive and productive experience 
administering election day registration, and also to address 
the allegation that Milwaukee is a voter fraud city, and that 
election day registration has contributed to a voter fraud 
problem in the city of Milwaukee.
    Nationally, use of the words ``voter fraud'' have been 
applied randomly, and are often unsubstantiated. In recent 
elections in Hawaii, there were allegations of widespread voter 
fraud when six polling sites did not open on time. In Indiana, 
problems with new touch-screen voting machines were construed 
as election fraud. In Utah, where poll workers forgot a step in 
setting up a voting machine, there were allegations of voter 
fraud.
    It has been our experience in Wisconsin that 
misrepresentation of these two words is often intentional, and 
has been successful at intimidating and disillusioning voters.
    Voter turnout during the 2004 Presidential election was 
unprecedented. Beyond any dispute, the city's elections systems 
were overwhelmed by the sheer volume of preelection 
registration and absentee voting activity. Due to Wisconsin's 
status as a battleground State, the problems that were 
experienced attracted significant national attention, as did 
allegations of widespread voter fraud. After both a State and 
Federal investigation into the election, there were two voter 
fraud prosecutions, and neither related to election day 
registration.
    While the act of voter fraud in any election is not 
acceptable, two prosecutions hardly warranted the labeling of 
Milwaukee as a voter fraud city. Fortunately, allegations of 
voter fraud did not overshadow Milwaukee's recordbreaking 
turnout in the 2004 Presidential election; 277,535 ballots were 
cast, representing 70 percent of the city's 307,000 registered 
voters. Nationwide, Wisconsin ranked second in voter turnout, 
just below our neighboring State of Minnesota.
    There were many factors that contributed to Milwaukee's 
success in motivating voter turnout, including the city's 
longstanding history of engagement in political processes. 
Unquestionably, the most significant contributing factor was 
the availability of election day registration. Of the nearly 
278,000 voters, over 80,000, or 29 percent, registered to vote 
on election day.
    I think it is time to get bifocals. In Milwaukee, voting is 
a citywide event that crosses into every neighborhood, 
community, gender, age, and economic class. Despite the 
overzealous and inaccurate allegations of Milwaukee being a 
voter fraud city, voting as a right is woven deeply and 
throughout the very cultural diverse fabric of Milwaukee. 
Election day registration has consistently encouraged voter 
participation.
    In Wisconsin, in the most recent gubernatorial election 
nearly 35,000 of the 172,000 voters who voted on election day 
were election day registration. That number represents one in 
five voters.
    Offering election day registration does require an 
additional administrative investment on the part of any 
municipality. Voting rooms are set up to allow separate areas 
for election day registration so as to avoid long lines and 
delaying the issuance of ballots to registered voters. In 
Milwaukee, we provide trained registrars at every polling site. 
At our 208 sites, this represents an investment of 320 
additional election workers, a minimal investment considering 
the outcome: civic engagement and voter participation.
    The value of election day registration exceeds increased 
voter participation. It is also evidenced by the demographics 
of the election day registrants themselves: young people, 
apartment occupants, people who are more transient, and persons 
from the lower socioeconomic classes.
    During the 2006 gubernatorial election I received a call 
from the chief inspector at Riverside High School, a voting 
site close to the UW-Milwaukee campus, notifying us that they 
were running out of election day registration applications. On 
delivering additional applications to the school, I found a 
registration line that spanned approximately four blocks long. 
Nearly every person in that line was a college student. Voters 
from the neighborhood and school faculty distributed bottled 
water and power bars to the people standing in line. It is 
difficult for me to imagine turning away young people from the 
polls because they did not register 15 or even 30 days prior to 
the election.
    In Wisconsin, State law clearly identifies that election 
day registrants must be prepared to provide a proof of 
residence that includes their name and registration address. 
The legislature has approved a comprehensive array of 
acceptable documents similar to HAVA that can include student 
identification cards, leases, property tax bill, government-
issued identification, and utility bills. An elector may also 
produce a corroborating witness who will certify their identity 
and address.
    Ms. Lofgren. Mr. Albrecht, could you try and summarize? We 
are a little bit over. And we do have a separate panel.
    Mr. Albrecht. I am sorry.
    Ms. Lofgren. That is all right. We are giving you extra 
time because you didn't have your bifocals.
    Mr. Albrecht. I know.
    Ms. Lofgren. But we do need to, if you could summarize and 
conclude, that would be great.
    Mr. Albrecht. All right. Elections should be about 
inspiring and engaging people, particularly young people or 
people that have been disenfranchised by the political process. 
In Wisconsin, we do not believe in setting up barriers that 
prevent students from experiencing the power of casting their 
first ballot or further disenfranchise the more transient 
residents of the city or the poor or the elderly with 
cumbersome I.D. requirements.
    Ms. Lofgren. Thank you very much.
    [The statement of Mr. Albrecht follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.027
    
    [GRAPHIC] [TIFF OMITTED] T0987A.028
    
    Ms. Lofgren. And thanks to all of our witnesses.
    Now is the time when we can proceed to questioning for 5 
minutes each. And I will turn first to Susan Davis, our 
colleague on the committee from California.
    Mrs. Davis of California. Thank you, Madam Chair. And thank 
you to all of you for being here. I was actually going to ask a 
question that in some ways, Mr. Albrecht, I think you answered 
partly, but I think that there are in some ways--I mean there 
are so many things that need to be done in communities to 
outreach for registration.
    I am guessing, and perhaps you can clarify for me, that in 
some ways same-day registration is sort of a last attempt 
effort in many ways. But that would suggest that somehow we are 
not doing everything that we should do beforehand. But I also 
am very aware of your testimony that largely we are talking 
about college students, perhaps, and others who have moved who 
are more transient.
    Mr. Ritchie, is that your assessment as well? I mean is 
there something that we should be doing more prior to--or in 
those areas where we have same-day registration, now is it 
considered not a last resort necessarily and it is just the way 
it is?
    Mr. Ritchie. Madam Chair, Representative Davis, Minnesota, 
I think, is similar to Wisconsin in that on large election 
years, presidential years, it can be 25 percent of our voters. 
So this is for us, it is a full spectrum; it is old, young, it 
is all kinds of people. It does represent approximately 80 
percent of those people who are changing their address, so they 
are prior registered, they have been in the system, they have 
moved. And the other 20 percent have just come of age, just 
moved to the state, or were just recently motivated because a 
candidate or an issue caught their attention. So I think it is 
a wide range. But what we see is that for young voters, it is 
often of greater benefit to young voters than to others.
    But I think your question gets to an issue that we are 
addressing in Minnesota right now, which is how do we get more 
people into the system earlier? And there are so many benefits 
to that. As an elected official, of course, we are buying, you 
know, voter lists, that kind of thing for door knocking, for 
registration purposes, for direct mail. And the more people 
that are registered before, the better are the lists. So that 
is one advantage.
    The second is that Secretaries of State offices and other 
organizations like League of Women Voters are distributing 
information about where to vote, about candidate information, 
about what is needed. And so the better, the more people 
registered the better the information is shared.
    And then finally, it is certainly true that getting people 
to feel they are part of the process somehow is going to have a 
positive overall benefit. We don't think of it as necessarily 
sort of a last-ditch effort, because so many of our Minnesotans 
use this opportunity. But it certainly is true that we want to 
do everything in our power to get more people registered 
before. And we have some specific proposals to begin using U.S. 
Postal Service data on change of address, being more directly 
tied into our other State systems that are requiring 
citizenship identification. And I would be happy to provide you 
with further information about that after I go back to my 
office.
    Mrs. Davis of California. Yeah. In terms of your situation, 
are you voting with machines or are you--what is the method of 
voting?
    Mr. Ritchie. Chairwoman Lofgren, Representative Davis, 
Minnesota only votes on paper, paper ballots. They are counted 
by optical scan equipment. And we have HAVA-compatible 
equipment that assists voters in marking their paper ballots, 
and then those are then used in the optical scan system. And 
frankly, it is the fact that we vote on paper that we have 
same-day registration, so everyone is welcome, and we do post-
election random audits. Those are the three pillars of our 
voter confidence.
    Mrs. Davis of California. Can you help me understand if in 
fact you have a situation where somebody may be in the area but 
it is not necessarily their precinct, or I am thinking even in 
terms of, you know, if they are voting on some county 
propositions versus city propositions, how do you deal with 
that, then, if in fact they are to show up in the wrong area? 
Are they sent to another area or are they----
    Mr. Ritchie. Chairwoman Lofgren, Representative Davis, it 
is a felony to vote outside of your precinct in the State of 
Minnesota, so we do not permit or allow this. We instruct 
people where they need to go. But we are looking closely at the 
experience in Colorado, which has been really in the forefront 
of looking at some county-wide voter registration systems where 
you could go to near your workplace or your school.
    So right now in Minnesota we don't have the option of 
voting outside of our precinct. But we are looking how other 
States are doing this, and we think there is something there.
    Mrs. Davis of California. Mr. Albrecht or Mr. Moore, are 
you also voting on paper in Wisconsin?
    Mr. Albrecht. Identical systems. Paper ballots. And then we 
also have the HAVA-mandated equipment for a person with a 
disability to mark their ballot.
    Ms. Lofgren. The gentlelady's time has expired. We will 
grant an additional 30 seconds for Mr. Moore to answer and then 
we will go to Mr. McCarthy.
    Mr. Moore. In North Carolina we have both forms. And one 
additional concern in our State on the same-day voter 
registration, our early voting folks actually are voting in 
places other than their poll site. A county will set up one, 
maybe a couple facilities throughout that county. And one of 
the concerns on the identification component is that they may 
be in a part of the county which they do not reside, and so no 
one there would know who they are. And that was one thing we 
actually raised at the State level.
    Ms. Lofgren. We now recognize the Ranking Member of the 
committee, the gentleman from California, Mr. McCarthy.
    Mr. McCarthy. Thank you, Madam Chair. Just a quick 
housekeeping--I have a couple reports that are relevant today, 
and just ask unanimous consent they get entered in the record.
    Ms. Lofgren. Without objection.
    Mr. McCarthy. Thank you very much.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.029
    
    [GRAPHIC] [TIFF OMITTED] T0987A.030
    
    [GRAPHIC] [TIFF OMITTED] T0987A.031
    
    [GRAPHIC] [TIFF OMITTED] T0987A.032
    
    [GRAPHIC] [TIFF OMITTED] T0987A.033
    
    [GRAPHIC] [TIFF OMITTED] T0987A.034
    
    [GRAPHIC] [TIFF OMITTED] T0987A.035
    
    [GRAPHIC] [TIFF OMITTED] T0987A.036
    
    [GRAPHIC] [TIFF OMITTED] T0987A.037
    
    [GRAPHIC] [TIFF OMITTED] T0987A.038
    
    [GRAPHIC] [TIFF OMITTED] T0987A.039
    
    [GRAPHIC] [TIFF OMITTED] T0987A.040
    
    [GRAPHIC] [TIFF OMITTED] T0987A.041
    
    [GRAPHIC] [TIFF OMITTED] T0987A.042
    
    [GRAPHIC] [TIFF OMITTED] T0987A.043
    
    [GRAPHIC] [TIFF OMITTED] T0987A.044
    
    [GRAPHIC] [TIFF OMITTED] T0987A.045
    
    [GRAPHIC] [TIFF OMITTED] T0987A.046
    
    [GRAPHIC] [TIFF OMITTED] T0987A.047
    
    [GRAPHIC] [TIFF OMITTED] T0987A.048
    
    [GRAPHIC] [TIFF OMITTED] T0987A.049
    
    [GRAPHIC] [TIFF OMITTED] T0987A.050
    
    [GRAPHIC] [TIFF OMITTED] T0987A.051
    
    [GRAPHIC] [TIFF OMITTED] T0987A.052
    
    [GRAPHIC] [TIFF OMITTED] T0987A.053
    
    [GRAPHIC] [TIFF OMITTED] T0987A.054
    
    [GRAPHIC] [TIFF OMITTED] T0987A.055
    
    [GRAPHIC] [TIFF OMITTED] T0987A.056
    
    [GRAPHIC] [TIFF OMITTED] T0987A.057
    
    [GRAPHIC] [TIFF OMITTED] T0987A.058
    
    [GRAPHIC] [TIFF OMITTED] T0987A.059
    
    [GRAPHIC] [TIFF OMITTED] T0987A.060
    
    [GRAPHIC] [TIFF OMITTED] T0987A.061
    
    [GRAPHIC] [TIFF OMITTED] T0987A.062
    
    [GRAPHIC] [TIFF OMITTED] T0987A.063
    
    Mr. McCarthy. First to Mr. Moore. You talked about, and I 
agree with your concerns on same-day registration, same-day 
voting. But what you did in North Carolina is actually 
different than what is being proposed in this House bill. You 
allowed for provisional ballots if you are a same-day 
registered and same-day voting. Could you elaborate why?
    Mr. Moore. Certainly. The ballots would be retrievable in 
that case. So if through the process of the few days between 
when the ballots are cast and between the canvass, if it was 
discovered that the ballot was fraudulent or the person was 
ineligible to vote, then there would be a means to trace the 
ballot to the voter and for the ballot to be retrievable at 
that point.
    Mr. McCarthy. Okay. Thank you very much.
    To Mr. Ritchie, thank you for coming. And I read your 
testimony. Sorry I was a little late. But in part of your 
testimony you said same-day registration has actually increased 
turnout.
    Now, I have got this here where they have taken an 
analysis, and you can tell me whether I am wrong or right here, 
it takes from 1952 to 1972 because in 1973 is when you went to 
same-day registration, correct? The average then was 77 percent 
turnout. And then from 1973 now to 2004, the average is 71 
percent turnout. So that is a decrease, but I don't know if 
decrease across the country people turning out. But you still 
feel, even though the numbers don't show it, that it does 
increase turnout?
    Mr. Ritchie. Chairwoman Lofgren, Ranking Member McCarthy, 
yes, that is right. In 1956 we started at 83 percent, we fell 
to 70 percent in 1972, and we extended the franchise to 18-
year-old men and women and we had a further downward pressure 
on our turnout. And we are now back up to almost 78 percent as 
of our last presidential election.
    I am very sorry you weren't here for my testimony, but I 
was referring to my meetings with the county election 
officials, who are really the experts and who does elections. 
All of them are quite clear.
    Mr. McCarthy. Could I ask you one thing about your answer? 
And I appreciate that. You talked about you want to make sure 
people register beforehand. That is your initial goal. Because 
people are more well informed. And I was just wondering, people 
use voter lists for a lot of different things, but candidates 
use them, too, for talking to voters. Do you feel voters that 
go in and do the same-day registration, that they are less 
informed or more informed because people are mailing their 
positions and where they stand based upon election records?
    Mr. Ritchie. Chairwoman Lofgren, Ranking Member McCarthy, 
80 percent of our same-day registrations are people who have 
been registered from 1 year to 89 years. And so 80 percent of 
those people have the same level of prior registration as 
anyone else. So we believe that the people who are registering 
to vote on election day are more or less equally informed.
    However, young people are generally often less informed 
because they are new to the process. And so it is very 
important to get more young people directly included. We are 
working hard on that. And so there are things that we want to 
do, but generally speaking, most of the people using this 
opportunity are people who have been registered for their 
entire lives, however long they have been adults. And they are 
quite well informed, especially in Minnesota. But of course, we 
are all above average.
    Mr. McCarthy. Well, that is good to know. I come from 
California, so maybe I am a little below. Have you found any 
fraud through this? And have you found through those younger 
people--I know people, they tell stories; people that are here 
elected tell that they were a little wilder when they were in 
their college days and they did things, pushing the envelope.
    Have you found since that is a larger portion that goes and 
votes on same-day registration, that they are voting absentee 
back home and at the same time going in? Have you had any 
reports about that?
    Mr. Ritchie. Chairwoman Lofgren, Ranking Member McCarthy, 
yes, thank you for this question. Almost every major election 
cycle, we find one person who has made the very serious mistake 
of voting in two places. And it makes me very sad to say it is 
almost always a young person. And it is often college students 
who don't understand that this will make it very hard for them 
to grow up and be a lawyer, which is what happened in one case, 
or some other. And there are things that we do as young and 
older people that we know that are wrong. And drunk driving is 
one. And sometimes there are no consequence and sometimes there 
are terrible consequences. And so I make it part of my job to 
try to communicate to young people, not to scare them away from 
voting, but saying look, this is a very serious mistake. And we 
always find them because we have a statewide system, and we run 
all the----
    Mr. McCarthy. Can I ask just one quick follow-up? I don't 
mean to cut you off. I only have a couple seconds. Was that 
vote counted? Because they don't vote provisional, correct?
    Mr. Ritchie. That is correct. That vote was counted. And as 
I say, in my state, I personally, my preferred system would be 
where no person could drive until they prove to me or someone 
that they weren't drunk or impaired. But that is not our 
system. And in voting it is not our system.
    Mr. McCarthy. Knowing what you know now, how every time you 
find someone who has broken the law there, would you change 
your current law and make a same-day registration vote 
provisionally so those votes would not be counted?
    Mr. Ritchie. Absolutely not. Madam Chairwoman, 
Representative McCarthy, your proposal which you asked earlier 
would disenfranchise 213,000 Minnesotans in a presidential 
election year.
    Mr. McCarthy. But they still vote. I don't understand how 
provisional--if I am allowed.
    Ms. Lofgren. The gentleman is granted an additional 30 
seconds so the witness can answer.
    Mr. Ritchie. The national average of counted provisional 
ballots is 63 percent. Let's say Minnesotans, who are above 
average, it is 70 or 80 percent. That would leave 100,000 
Minnesotans disenfranchised by your idea. This would not be 
something that I would support.
    Mr. McCarthy. I wish I had more time.
    Ms. Lofgren. The gentleman's time has expired.
    I will begin. We got a letter from Deborah Ross, the 
majority whip of the North Carolina General Assembly. From her 
stationery I see she chairs the Ethics Committee and Judiciary 
I Committee, and is vice chair of the Election Law Committee. 
And she disagrees with you, Mr. Moore. And I just wanted to put 
in--I ask unanimous consent to put the letter in the record. 
[GRAPHIC] [TIFF OMITTED] T0987A.064

[GRAPHIC] [TIFF OMITTED] T0987A.065

    Ms. Lofgren. But I would note that she reports to us that 
the Director of North Carolina State Board of Election 
encouraged her as the bill sponsor to use one-stop voting sites 
as ideal locations: And in a letter that he wrote to her she 
quotes, a registration application filled out, and sworn to, in 
the presence of an election official enhances the accuracy of 
the information obtained and transferred into our database. In-
person registration also enhances a proper review of the 
identification documentation provided by the applicant. And the 
new law requires the Board of Elections to verify the address 
of the applicant through the DMV and other databases.
    She points out that there are many safeguards against 
fraud. And that in addition to those, that the applicants sign 
under penalty of perjury that he or she is a U.S. citizen. And 
failing to adhere to the rules results in two felonies. And 
notes that the bill--she says HB 91 passed with bipartisan 
support, particularly in the North Carolina Senate. The U.S. 
Department of Justice pre-cleared the new law within a month of 
its passage, and that the law was used in October and November 
2007, municipal elections without incident. So I make that part 
of the record.
    And I just, you know, I did a search with the Internet. You 
can find a lot of things, but you are never sure if it is 
entirely accurate. But the only instance I could find of a 
prosecution of voter fraud in North Carolina was a gentleman 
who worked for Congressman Patrick McHenry who voted twice and 
was indicted. And apparently he is a young man who made a 
mistake. He made some kind of plea deal, which I am happy for 
him in his life. But I couldn't find any other prosecution. Are 
you aware of any, Mr. Moore?
    Mr. Moore. A couple things, if I may. I used to actually 
co-chair the Elections Law Committee with Representative Ross. 
We had a spirited debate on this issue on the floor of the 
House. The one thing we heard was that there were folks who 
said they went to vote, they weren't able to, and there were 
allegations of fraud. One of the difficulties about voter 
fraud, Madam Chair, is it is very difficult to prove. At least 
that has been the experience not only in our State, but what I 
have researched and found in other States. The example I told 
you where the dog----
    Ms. Lofgren. So were there prosecutions? Do you know any 
other than this Congressman McHenry's aide?
    Mr. Moore. I am not aware of any that I actually can cite 
to you this morning, but I am aware there were other 
investigations.
    Ms. Lofgren. Okay. I think you answered this, Mr. Albrecht. 
But Mr. McCarthy mentioned in his opening statement, or I guess 
it was to the first panel, this task force that looked at 
Milwaukee. And how many--there were prosecutions occurred?
    Mr. Albrecht. There were two prosecutions----
    Ms. Lofgren. Two prosecutions.
    Mr. Albrecht [continuing]. Coming out of the 2004 election. 
Neither was related to election day registration. Both were 
occurrences of a person who was on probation or parole for a 
felony conviction at the time of the election.
    Ms. Lofgren. And so they--under State law they weren't 
eligible to be a voter?
    Mr. Albrecht. Correct.
    Ms. Lofgren. Okay. And I am just wondering if any of you 
can answer one of the things that I mentioned in my opening 
statement is the situation where sometimes provisional ballots 
aren't counted. And one of the things that I have thought about 
is whether there should be standards and procedures so there is 
uniformity on the counting of provisional ballots, because it 
is sort of an equal, you know, justice thing. You know, if you 
are in county A it gets counted; if you are in county B it 
doesn't. And it seems like there ought to be some uniformity 
to--you know, whatever the rules are ought to apply to all the 
Americans so that they are treated the same.
    Do you have thoughts on why ballots aren't being counted 
and whether it is the lack of standards or some other reason? 
Anyone who knows the answer. Mr. Ritchie you might have a 
thought on that.
    Mr. Ritchie. Madam Chair, I think national standards would 
be very important, but it would also need to be somehow looked 
at the overall cause. Provisional ballots are an extremely 
expensive and time-consuming and complicated process. And so 
once national standards are under discussion, finding out what 
are the cost burdens----
    Ms. Lofgren. Right.
    Mr. Ritchie [continuing]. On state and local, particularly 
local governments. And so that that could be somehow addressed.
    Ms. Lofgren. That would be an important component.
    Mr. Albrecht, do you have anything to add on that? I will 
grant myself an additional minute so you can answer.
    Mr. Albrecht. I will just agree they can present a pretty 
significant administrative burden, and that there is 
substantial cost involved with that as well.
    Ms. Lofgren. Of course under HAVA, you have to have it 
anyhow. So I think this is something we would certainly welcome 
additional advice on from not just you two, but other State 
election officials.
    Well, my time has expired, so I will now turn to Mr. Ehlers 
for his 5 minutes.
    Mr. Ehlers. Thank you very much. And Mr. Ritchie, I was 
born in Minnesota, so I appreciate your comments that 
Minnesotans are above average. That has been my experience, 
too. It has also been my experience that the crooks in 
Minnesota are above average and very clever. And I think you 
should be concerned about that.
    In between the first part of this hearing and the second 
part we had to go to the floor to vote, and one of my 
congressional colleagues from Minnesota told me tale after tale 
of dishonest practices, many of them involving same-day 
registration. So it is not apparently as copacetic as we have 
been led to believe here.
    I don't understand the reluctance to have provisional 
ballots. If you are so worried about the sanctity of the 
ballot, I think it is essential that you have provisional 
ballots. And you argue the expense. Good grief, it is far more 
expensive to run an election than to deal with just a minor 
part of it, which is the provisional ballots. It makes me very 
suspicious when people say we want same-day registration, but 
we don't want provisional ballots. That makes no sense. And 
that leads me to believe people are trying to play games with 
this. And I just cannot abide that.
    Mr. Albrecht, I wanted to turn to you for a moment. After 
your election in 2005 or 2004, I understand the Milwaukee 
Police Department, district attorney's office, the FBI, U.S. 
Attorney, formed a special task force. They found that there 
were a number of cases in which the number of people who voted 
exceeded--the count exceeded the number of people who actually 
voted. I am sorry, the ballots cast exceeded the number of 
votes. And there were a number of other improprieties. What can 
you tell us about that?
    Mr. Albrecht. The number that you are referencing, which 
was sort of an immediate post-election disparity between the 
number of people who had been assigned voter numbers on 
election day and ballots cast in the machine, was actually 
recently resolved. There was a number from the formula that law 
enforcement was missing. And that is the people who had 
registered to vote at City Hall in the 14 days prior to the 
election. So while the final report from the district 
attorney's office has yet to come up or be released, the 
initial significant margin of error that was widely promoted in 
the media in fact proved to be false.
    Mr. Ehlers. Well, we will be following that with great 
interest.
    And I just want to quickly drop back to the issue of costs 
of provisional ballots. We spent millions, in fact I suspect it 
is above a billion, dealing with voting improprieties in 
Florida in 2000. I can't believe that the cost of a provisional 
ballot comes anywhere near the expense involved in case there 
is really a legal battle involved about the results of an 
election. I just think that is a totally mistaken assumption 
and statement, and I cannot accept that. That is separate from 
the issue of same-day registration, but I really think it is 
also crucial to have provisional ballots for those exercising 
same-day registration.
    I am not a babe in the woods. I wasn't born yesterday. I am 
familiar--I have been working in elections for over 30 years. I 
am familiar with many, many cases of fraud taking place. And 
sometimes there are victims, as the one, the gentleman you 
mentioned, Mr. Ritchie, who was convicted. It may have been 
innocent. But someone told that person to do that. And I have, 
in contested cases that we have had to deal with in this panel, 
I have found the same thing. There are outside forces who are 
persuading people to do things that are illegal.
    And we have a case of a group that was trying to persuade 
illegal aliens that it was perfectly fine for them to vote 
because they wanted them to vote. But of course they could be 
deported immediately for doing that.
    So it is the organized fraud I worry about, not the average 
person who comes in and makes a mistake. But there are people 
out there who try to influence elections fraudulently. And we 
should be aware of that and we should guard against that.
    I will yield any remaining time I may have to Mr. McCarthy 
if he wishes to follow up on anything.
    Ms. Lofgren. The gentleman yields 10 seconds.
    Mr. McCarthy. The only comment I would make is that your 
statement about the provisionals, you let a vote go that is an 
illegal vote, knowing it is an illegal vote. Provisionals, the 
majority aren't counted because they are not determining the 
outcome. JFK was elected by one vote per precinct. President 
George Bush, 500 votes in Florida. We have congressional 
Members here that are here by 83 votes.
    I think the accuracy and the trust of elections is of 
utmost importance. I would say you have to have provisional. 
Why you go beyond, and knowing that you are going to have and 
accept illegal votes in, is not a way to move. Thank you.
    Ms. Lofgren. The gentleman's time has expired.
    The gentleman, Mr. Davis, is recognized for 5 minutes.
    Mr. Davis of Alabama. Thank you, Madam Chairwoman. Let me, 
I guess, make one observation at the outset that I don't think 
anyone on either side of the aisle disputes that we have 
election fraud that happens.
    There is a particular gentleman in Alabama who ran for 
Congress in a county that had 13,000 people, and the problem is 
he got 16,000 votes in that county. Happened to be my 
predecessor. So I know the story fairly well. What is 
interesting to me is we spend a lot of our energy and a lot of 
our time focusing on just that side of the equation.
    The other side of the equation is voter suppression. The 
other side of the equation is deliberate tactics designed to 
suppress the vote, particularly in minority communities. Let me 
mention two notable examples. The Ranking Member mentioned one 
example that is odious, encouraging people who are not legal 
citizens to vote. But there is another example that I know of 
from the opposite side. And in one election in California there 
was a congressional candidate in the last cycle who apparently 
sent out notices to immigrants who were documented, who were 
capable of registering to vote, and suggested to them that they 
could not vote unless they were born in the United States. That 
is not accurate.
    And another election in Louisiana, 2002, Senator Landrieu's 
reelection to the Senate, there were polling places, it was 
alleged and documented, where certain individuals went into 
minority voting precincts with bullhorns and announced that 
anybody in this line who has an outstanding judgment or an 
outstanding warrant can't vote. That is not the law in this 
country.
    There are other tactics that are hard to describe and hard 
to explain, dealing with calling certain households in certain 
communities and telling them that the polling places may be 
moved on election day, so make sure you know where your polling 
place is. Or there could be long lines on election day, if you 
don't get to the polling place by a certain time you can't 
vote. Or it may not be in your interest to vote because you may 
not be able to get back to work on time. All of those things I 
would label as voter suppression. And frankly, it is my 
understanding that all those tactics violate existing laws that 
we have today.
    So let me just ask the panel, Mr. Albrecht, Mr. Ritchie, 
the two election officers who are on the panel, do you agree 
with me that voter suppression as you understand it violates 
existing Federal laws? And would it also violate existing State 
laws in your jurisdictions?
    Mr. Albrecht. I would agree. I think in the State of 
Wisconsin, in Milwaukee, for example, the two cases that were 
prosecuted of felons who were on probation or parole at the 
time of the election became such lightning rods for allegations 
of voter fraud and attention to that issue that it has now 
really succeeded as a suppression tool for felons who have 
completed their probation or parole, not believing that in fact 
they are eligible to vote in elections.
    Mr. Davis of Alabama. And you would agree with me that 
communicating, knowingly communicating false information to 
convicted felons about their status and suggesting to them--for 
example, in Alabama, now there are circumstances in which 
convicted felons can vote. There were allegations from the 2006 
election cycle, as I understand it, that there were some 
campaigns and some communities saying remember, if you are a 
convicted felon you can't vote, irrespective of a new law in 
Alabama that changed that.
    So you would agree that that kind of technique would be 
illegal in your jurisdiction.
    Mr. Albrecht. I would agree.
    Mr. Davis of Alabama. Mr. Ritchie.
    Mr. Ritchie. Madam Chair, Representative Davis, I would 
agree this is a problem. And I participated in a number of the 
hearings and studies for the reauthorization of the Voting 
Rights Act. And the thousands of pages of voter suppression 
that were documented in the Midwest region and throughout the 
entire country were stunning to me.
    And one morning in a recent election in my neighborhood 
somebody put flyers underneath every windshield wiper, urging 
people to go vote to a place that would seem logical but was 
absolutely not the place to vote and had never been the place 
to vote.
    I feel very fortunate to live in Minnesota, where now 
Congressman Ellison passed laws in our state legislature 
against deceptive voting practices. And I am very encouraged to 
see debate and conversation about that here in Washington. But 
it does happen, and it is enough of a problem that the 
Congress, I believe unanimously, reauthorized the Voting Rights 
Act. So it must be widespread and nationwide.
    Mr. Davis of Alabama. Well, two last observations. I wish 
it were unanimous. Unfortunately, it was not. There were about 
60 Members who voted against it.
    But if I could just make two quick observations.
    Ms. Lofgren. The gentleman is granted an additional minute.
    Mr. Davis of Alabama. Thank you.
    The first observation, I serve with the Chairwoman on the 
Judiciary Committee, and we have oversight hearings 
periodically with the voting rights division chiefs, the people 
who are in charge of enforcing voting rights laws. I have asked 
the question at several different hearings if the Ashcroft-
Gonzalez Justice Department have brought a single voter 
suppression case, and the answer I receive varies from ``I have 
no idea'' to ``I don't know of any.'' That is unacceptable.
    The final point, Madam Chairwoman, something else that I 
wish this committee would take up at some point, is the very 
odious practice of anonymous election calls that communicate 
slanderous and false information. For example, suggestions that 
John McCain had an illegitimate child; that happened in the 
State of South Carolina in 2000.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Davis of Alabama. False and defamatory.
    Ms. Lofgren. Mr. Ellison is participating per our UC 
earlier and is recognized for 5 minutes.
    Mr. Ellison. Thank you, Madam Chair.
    Could the panelists share with us if the States have a 
standard and consistent definition of provisional ballot 
between them? Do you understand my question? Is there one 
standard, uniform definition of what a provisional ballot is?
    Mr. Ritchie. Madam Chair, Representative Ellison, to my 
knowledge, no.
    Mr. Albrecht. I would agree, there seems to be varying 
definitions between States.
    Mr. Ellison. And, Mr. Moore, would you agree with that?
    Mr. Moore. I would. We define it in our North Carolina 
statutes, which is what I am used to working with, but how it 
compares to other States I am not aware.
    Mr. Ellison. And is there any standard requirement among 
the States as to when a provisional ballot will be counted and 
when it will not be? How is it ultimately determined?
    Mr. Moore. Well, in North Carolina it is counted when the 
determination is made that the person is an eligible voter; or 
actually that the person is not an ineligible voter, I should 
say. So most provisional ballots, it is my understanding most 
provisional ballots are counted, and they are treated much like 
an absentee ballot in North Carolina.
    Mr. Ellison. So, for example, in North Carolina if you vote 
provisionally, then some election official will determine 
whether you are an eligible voter. And if it is confirmed to be 
that case after you cast your ballot, it will be put in the 
batch with the rest of the ballots. Am I right about that?
    Mr. Moore. That is correct. And the eligibility criteria 
would be determined in large part to the HAVA guidelines.
    Mr. Ellison. Now, are you aware of other States where that 
is not the case? It seems to me I am aware of some States where 
provisional ballot sort of is really no ballot; it is just 
something for you to fill out to feel like you voted, but you 
don't really ever have your ballot counted. Are you aware of 
any other kind of definitions like that? Perhaps there are some 
other panelists on another panel that may speak to that issue.
    Mr. Albrecht. No. Our issuance of a provisional ballot is 
comparable to what has been described, the two identification 
requirements consistent with HAVA. And if the I.D. is produced, 
the ballot is counted in the election.
    Mr. Ellison. What if the person votes, they are eligible, 
but they don't come back to give, you know, for reasons of 
their own, they can't come back and give that I.D. or whatever 
it is that was lacking?
    Mr. Albrecht. Which unfortunately happens often. We had 40 
provisional ballots in one of our most recent elections, and 
only three of them responded the next day to meet the 
identification requirement. The 37 other ballots then were not 
counted in the election.
    Mr. Ellison. Mr. Ritchie.
    Mr. Ritchie. Madam Chair, Representative Ellison, I believe 
this is why somewhere over a third of provisional ballots are 
never counted. That is the national average. And you are 
describing some of the reasons, but there is no standard, there 
is no national approach.
    Mr. Ellison. Of course it might be--I mean I don't take any 
issue at this moment with the North Carolina procedure, but I 
mean there could be--you could define provisional ballot as 
just, you know, pretty loosely. I mean you could just sort of 
fill it out and then maybe it never gets counted. I mean that 
is my concern with this whole provisional ballot thing. Well, 
one of them is that it could simply result in people not voting 
even if they are in all other ways qualified to vote. You have 
any response to that?
    Mr. Moore. I would. I think that the provisional ballots, 
though, in not counting those, the State still has to comply 
with HAVA. So you do have that Federal law, the same thing that 
applies on voting on election day would apply to the 
provisional ballots.
    And secondly, I think it is important to mention when we 
say we don't count all provisional ballots, well, the reason is 
because a lot of those ballots may be invalid, the person was 
not eligible to vote for some reason and that is why they are 
voting provisional.
    So I think when the percentages are thrown around that a 
certain percentage of provisional ballots aren't counted and 
that folks are being disenfranchised, that that in some way 
ignores the reality that the reason they are provisional 
ballots is that we don't know. And once they are reviewed, it 
is determined that actually some of those ballots were not 
valid and that they should not be counted. So that would at 
least count for some of that percentage.
    Mr. Ellison. Well, Representative Moore, you would agree 
that there is a percentage of those ballots that were cast that 
the individual is in all other respects eligible to vote, they 
just didn't happen to have what they needed at the moment when 
they were at the polls. You would agree with that, wouldn't 
you?
    Mr. Moore. Just as in answer to the other question about 
prosecutions, I am unaware of the data on that, but I can tell 
you----
    Mr. Ellison. I know, but you suppose that hey, maybe some 
of the reasons that these folks don't come back is because they 
are not eligible to vote. I am just asking you to agree to the 
other side of that equation, that there are a lot of those 
people who were eligible to vote, they just--because they got 
five kids and grocery shopping, two jobs and life on top of 
their shoulders, they just can't make it back to the polls. You 
would agree with that, too, wouldn't you?
    Mr. Moore. I would certainly hope it wouldn't happen.
    Mr. Ellison. Come on now. I agreed with you on your side. 
You don't want to agree with me on mine?
    Mr. Moore. I am sure there are examples.
    Ms. Lofgren. The gentleman's time has expired, and all time 
to question this panel has expired.
    Mr. Ehlers. Madam Chair, may I just have 10 seconds?
    Ms. Lofgren. Certainly. Without objection.
    Mr. Ehlers. I just want to make clear, and I am sorry that 
Mr. Davis has left, but I totally agree with his statements. I 
abhor all fraud, no matter which party, which people, whoever 
does it, how they do it. I abhor it, I want to stop it. And I 
want to make that clear. And I think that is true of everyone 
on this panel.
    Ms. Lofgren. Thank you very much, Mr. Ehlers.
    We want to thank the panelists, the witnesses. And we will 
have 5 legislative days, if we have additional questions we 
will forward them to you. And we would request if that happens 
that you answer them as promptly as you can. And we thank you 
very much for sharing your expertise with us.
    And we will call the next panel forward at this time.
    Ms. Lofgren. As the witnesses are coming forward, I will 
begin our introductions.
    First I would like to introduce Mr. Miles Rapoport. He is 
the president of Demos, a nonpartisan public policy research 
and advocacy organization committed to building an America that 
achieves its highest democratic ideals. Prior to his service at 
Demos, he served for 10 years in the Connecticut legislature. 
As a State legislator, he was a leading expert on electoral 
reform, chairing the Committee on Elections. In 1994, he was 
elected as Secretary of State of Connecticut. And as Secretary 
of State, Mr. Rapoport released two reports on the state of 
democracy in Connecticut. He was also executive director of 
Democracy Works, a nonpartisan group that works on democracy 
reform.
    Next we have Daniel Tokaji. He is an assistant professor of 
law at Ohio State University's Moritz College of Law, and 
associate director of election law at Moritz. In addition to 
his work with Ohio State University, Mr. Tokaji has written 
numerous publications and articles on election issues, as well 
as co-authored an EAC study with the Eagleton Institute of 
Politics on provisional voting. Prior to arriving at Moritz 
College of Law, Mr. Tokaji was a staff attorney with the ACLU 
Foundation of Southern California.
    Ms. Lofgren. Next we have Jan Leighley, who is a Professor 
of Political Science at the University of Arizona. Her current 
research focuses on the determinants and consequences of voter 
turnout in the United States and effects of various States' 
policies regarding election administration and voter 
registration. Professor Leighley's work appears in various 
journals, such as the American Political Science Review, the 
American Journal of Political Science, and the Journal of 
Politics in American Politics Research.
    And, finally, we have Mary Kiffmeyer. She served as the 
Secretary of State of Minnesota, the 20th Minnesota Secretary 
of State, from 1999 to 2006. Ms. Kiffmeyer also served as the 
President of the National Association of Secretaries of State, 
and she is also a former member of the Election Assistance 
Commission Standards Boards.
    So we welcome all of our witnesses who have tremendous 
expertise to share with us today. We appreciate your being 
here.

   STATEMENTS OF MILES RAPOPORT, PRESIDENT, DEMOS; DANIEL P. 
TOKAJI, ASSOCIATE PROFESSOR OF LAW, THE MORITZ COLLEGE OF LAW; 
  JAN E. LEIGHLEY, PROFESSOR, UNIVERSITY OF ARIZONA; AND MARY 
        KIFFMEYER, FORMER SECRETARY OF STATE, MINNESOTA

    Ms. Lofgren. We will start with Mr. Tokaji.

                 STATEMENT OF DANIEL P. TOKAJI

    Mr. Tokaji. Thank you so much, Madam Chair and members of 
the committee. I am very grateful to have been invited today to 
testify on this very important subject.
    I am going to start with some background on election 
reform, including the various values over the past several 
years that have informed the debate. I will then turn to a more 
detailed discussion of the issues of provisional voting and 
election day registration, focusing on the nexus between the 
two of them.
    As explained below, provisional voting has undoubtedly had 
enormous benefits in some respects, but it also should be 
acknowledged that it carries with it some significant problems. 
Foremost among them are the rejection of the votes of some 
eligible voters, the unequal treatment of voters across 
counties that was referenced a moment ago and, perhaps most 
significantly, the potential for post-election litigation of 
the type that we saw after Florida's 2000 election over whether 
those ballots should count. For reasons that I will explain, I 
think election day registration has the potential to both 
increase turnout while minimizing our reliance on provisional 
ballots and avoiding some of these problems.
    Two of the values that have been at the center, properly 
so, of the debates over election reform over the past several 
years are access and integrity. By access, the idea that 
everyone should be able to vote and everyone's vote should 
count. By integrity, the idea that we want to minimize cheating 
and fraud.
    What I would like to suggest today is that there is a third 
value that needs to be added to the mix, and that is finality, 
the idea that we need to resolve elections promptly, ideally 
with a minimum of judicial involvement.
    Now, we have had some significant and I think very helpful 
legislation both at the Federal level and at the State level in 
recent years. Among the provisions of the Help America Vote Act 
was a requirement that all States have provisional voting and 
that they issue provisional ballots to at least two categories 
of voters: those who show up at the polls and find their names 
not at the list and those who fail to present required 
identification.
    The idea as expressed by the Carter-Ford Commission is that 
no American qualified to vote anywhere in his or her State 
should be turned away from the polling place in that State.
    Now, I think provisional voting has had some significant 
advantages, but there are also some downsides, and one of them 
is that a lot of the provisional ballots that are cast by 
eligible voters wind up not being counted. Nationwide, 63 
percent were counted, but some 37 percent were not counted. 
Now, I think there are some procedural things that can be done 
to improve that number and to see that more provisional ballots 
are counted, which I have referenced in my written testimony, 
but it is an issue that we have to be concerned with.
    Perhaps an even more significant issue is disparities in 
how provisional ballots are treated across counties, different 
standards and different procedures that are followed, as was 
referenced just a moment ago. This is a serious problem and 
could raise equal protection concerns of the kind that caught 
the Supreme Court's attention in Bush versus Gore.
    Third and finally, the more provisional ballots you have, 
the greater the potential for protracted, post-election 
litigation over the result of the type that we almost had in my 
own State of Ohio in 2004, where we had a whopping 159,000 or 
so provisional ballots cast. And there is no question that if 
the result had been closer we would have seen litigation in our 
State over whether to count those provisional ballots, 
something comparable to what we saw in Florida 2000 over 
whether to count those punch cards.
    Let me turn in the short time I have left to the subject of 
election day registration. There is no reasonable basis for 
disputing that election day registration increases turnout. I 
know that Professor Leighley will address that question. What I 
want to focus on is that election day registration can also 
significantly reduce the number of provisional ballots that 
have to be cast, and thus advance the value of finality as well 
as access, by reducing the likelihood of this very disruptive 
post-election litigation.
    So, again, election day registration is something that can 
increase access, can advance the goal of finality, and does so 
without increasing the risk of fraud.
    I know my time is up, so I would call the committee's 
attention to a study that I cited in my testimony from 
Professor Lorraine Minnite, investigating very carefully the 
incidents of fraud in election day registration States and 
finding it is not greater than in any other States.
    Ms. Lofgren. Thank you very much, Professor.
    [The statement of Mr. Tokaji follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.066
    
    [GRAPHIC] [TIFF OMITTED] T0987A.067
    
    [GRAPHIC] [TIFF OMITTED] T0987A.068
    
    [GRAPHIC] [TIFF OMITTED] T0987A.069
    
    [GRAPHIC] [TIFF OMITTED] T0987A.070
    
    [GRAPHIC] [TIFF OMITTED] T0987A.071
    
    [GRAPHIC] [TIFF OMITTED] T0987A.072
    
    [GRAPHIC] [TIFF OMITTED] T0987A.073
    
    [GRAPHIC] [TIFF OMITTED] T0987A.074
    
    [GRAPHIC] [TIFF OMITTED] T0987A.075
    
    [GRAPHIC] [TIFF OMITTED] T0987A.076
    
    [GRAPHIC] [TIFF OMITTED] T0987A.077
    
    [GRAPHIC] [TIFF OMITTED] T0987A.078
    
    Ms. Lofgren. Professor Leighley.

                  STATEMENT OF JAN E. LEIGHLEY

    Ms. Leighley. Madam Chairwoman Lofgren, Ranking Member 
McCarthy, and other members of the subcommittee, thank you very 
much for the opportunity to present to the committee an 
overview of what scholarly research has demonstrated regarding 
the effects of election day registration on voter turnout.
    Political scientists have long been interested in State-
level policies and their effects on whether individuals choose 
to cast ballots on election day, perhaps the ultimate act of 
engagement and equality in a democratic political system. Of 
course, we know a relatively small proportion of individuals 
choose to exercise this democratic right in the United States 
compared to other countries, and seeking to understand whether 
policies might be adopted to increase voter turnout is indeed a 
critical endeavor, as we seem to have agreed so far today. 
Widespread participation in the democratic process is an 
important part of maintaining faith in government.
    Briefly, my testimony shows that we know quite a bit about 
the impact of election day registration. My own research has 
shown that its adoption in the 1970s by the three early adopter 
States--Maine, Minnesota, and Wisconsin--led to overall 
increases in turnout of over 4 percentage points, increases in 
the turnout of young people between 8 and 12 percentage points, 
and increases in turnout of lower-middle-class people of over 5 
percentage points. And this research is consistent with all 
existing research which has shown that those States had 
substantial increases in turnout from the adoption of election 
day registration.
    Modern research on the impact of electoral reforms on voter 
turnout starts with the seminal work, Who Votes, by Professors 
Ray Wolfinger and Steve Rosenstone; and Wolfinger and 
Rosenstone showed that requiring people to register well in 
advance of election day decreased voter turnout by about 6 
percentage points. A substantial body of research produced in 
27 years since Who Votes has unambiguously supported its 
conclusion that lowering the costs of voting would increase 
turnout. The only questions open to debate are what are the 
most effective ways of lowering the cost of voting and which 
persons would be most affected by any reforms.
    The existing literature on the effects of election day 
registration points to four key conclusions:
    First, election day registration has a positive and 
significant effect on voter turnout. Not a single study based 
on the experience of the Wave I States suggests that voter 
turnout would decrease or remain unchanged. Instead, this 
research suggests that voter turnout would increase at a 
minimum from between 3 to 6 percentage points.
    Second, the magnitude of this effect is larger for the 
three States that adopted election day registration earlier 
than for those who adopted it later, Idaho, New Hampshire, 
Wyoming.
    We don't have any firm evidence as to why election day 
registration seems to have had less of an impact in these 
States. However, they did adopt election day registration as an 
alternative means of complying with the National Voter 
Registration Act--Motor Voter--which allows those States to 
avoid complying with other substantive provisions of that law. 
So any analysis of impact of election day registration in these 
States is implicitly comparing the adoption of election day 
registration to the adoption of the provisions implemented of 
the National Voter Registration Act.
    Third, the two groups who are most affected by the 
availability of election day registration are young individuals 
and individuals who have moved recently.
    Michael Alvarez at Cal Tech has written several reports 
with other co-authors and published by Demos showing that 
election day registration would have increased turnout in other 
States that were considering it, New York and Iowa, and 
estimating that the turnout of younger individuals and of 
recent movers would likely increase by approximately 10 to 12 
percentage points. These studies show the effects of election 
day registration are somewhat larger for middle and lower 
income and education individuals than for high income and high 
education individuals. My current research confirms these 
estimates.
    Fourth, existing research suggests the two potential 
disadvantages of election day registration, the possibility of 
fraudulent registration and voting and increased implementation 
costs, are minimal.
    As consistent as these research findings are, they are 
nonetheless somewhat captive of the empirical reality that we 
have only six States--I guess we now have more--with evidence 
on that that have adopted election day registration, and these 
States adopted election day registration in two different 
periods. The common mode of analysis is to estimate the 
difference in turnout in election day registration States pre- 
and post-EDR adoption and to compare the difference with the 
difference observed in non-EDR States. Methodologically, this 
raises issues about what the relevant comparison groups should 
be.
    For example, some non-EDR States might well adopt other 
policies meant to increase registration or turnout, and such 
actions could minimize observed differences between the two 
sets of States. This is precisely what we believe occurred in 
comparing the Wave II State adopters with the non-EDR States 
and their compliance with NVRA.
    My current research with Jonathan Nagler provides some 
advantages in research design over these previous approaches. 
Our analysis at this point strongly reinforces the four key 
points of previous research: an estimated positive impact of 
approximately 4 percentage points in Wave I States, the 
greatest impact for youngest age group and greater impacts of 
election day registration for individuals in the middle and 
lower income and educational groups rather than in the highest 
groups.
    Ms. Lofgren. Thank you very much, Professor; and I just 
want to take this opportunity to say what a pleasure it is to 
hear Ray Wolfinger being quoted. He was my absolute favorite 
professor as an undergraduate at Stanford quite a few years 
ago. So thank you very much.
    [The statement of Ms. Leighley follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.079
    
    [GRAPHIC] [TIFF OMITTED] T0987A.080
    
    [GRAPHIC] [TIFF OMITTED] T0987A.081
    
    [GRAPHIC] [TIFF OMITTED] T0987A.082
    
    [GRAPHIC] [TIFF OMITTED] T0987A.083
    
    [GRAPHIC] [TIFF OMITTED] T0987A.084
    
    [GRAPHIC] [TIFF OMITTED] T0987A.085
    
    [GRAPHIC] [TIFF OMITTED] T0987A.086
    
    [GRAPHIC] [TIFF OMITTED] T0987A.087
    
    [GRAPHIC] [TIFF OMITTED] T0987A.088
    
    [GRAPHIC] [TIFF OMITTED] T0987A.089
    
    Ms. Lofgren. Ms. Kiffmeyer.

                  STATEMENT OF MARY KIFFMEYER

    Ms. Kiffmeyer. Madam Chair Lofgren, Representative 
McCarthy, members, I am here today to testify in favor of 
integrity in the elections system.
    It is so often that we take a little piece of an election 
and we focus so much on that that we lose sight that it is a 
system. It is an entire system. It begins with registration, 
and it concludes at the finality of actually having those votes 
recorded and included. So my approach here is, let's stop just 
focusing on just that one piece. Let's think of it as a whole. 
Because the ballots in the box are integrally tied to who gets 
the ballot.
    Does same-day registration increase turnout? In taking a 
look at some of these statistics, in the years before same-day 
voter registration in Minnesota, it went below 60 percent one 
time. In the years after same-day voter registration, it went 
below 60 percent six times. So I think it is important to 
realize not only in the average but in the individual years it 
is certainly seen.
    And I think part of that is attributed to Minnesota's 
culture. We are Germanic, Norweigian. We just are involved. If 
there is an organization for anybody, we have got it in 
Minnesota. So a lot of this I believe has a lot to do with just 
simply that kind of culture.
    Our high school students, almost 100 percent of them are 
registered to vote before they leave high school. It is a very 
active part of that. So for those young people it is really an 
issue. The college students who are coming here from other 
States are often using same-day voter registration to vote in 
elections in Minnesota on election day though they are from 
another State.
    My approach was to encourage everyone; and certainly the 
results and that message of hope and focus on integrity, I 
believe, did contribute to the upward trend in Minnesota's 
election turnout during the last years. I took those 
principles--access, accuracy, integrity, and privacy--before I 
thought of running for Secretary of State, because I felt those 
embodied all of the election system.
    In Minnesota, when it came to paper ballots, which I took 
office before the 2000 election and served during the time 
including the tragic death of Senator Wellstone, we did an 
election in 11 days, and as well we did many other things, but 
we focused on those ballots. I stood for paper ballots when the 
technology trend was just out of this world; and I said, no, it 
can't withstand that scrutiny. We deserve better.
    In Minnesota, we implemented Precinct Optical Scan paper 
ballots during my watch, the methodical recounts of ballots, 
aggressive training at all levels of election workers. Having 
been one myself for 12 years in the polling place, I knew how 
much training could really implement these changes we needed. 
The auditing statewide of results and certification of the code 
was implemented during my time as Secretary of State.
    Now, on the other issue as well, incidents, some that you 
might say, is there no stealing of votes, all these kind of 
things you hear? Well, any of you who don't believe that there 
is stealing of votes, next time you leave, don't lock your 
house and don't lock your car door if you have that kind of 
absolute trust. It is important to realize that, of course, I 
think what we want is a balanced system that recognizes those 
situations not only in the final end, counting ballots, but in 
the beginning, which is registration.
    I think that recently, as a matter of fact this week, in 
the University of Minnesota daily newspaper a commentary was 
written by the students in support of photo ID. These young 
folks stated, in synch with the minds of Jimmy Carter, James 
Baker, and Andrew Young, former mayor of Atlanta, Georgia: A 
photo ID would not be a poll tax but a voting enabler. This 
comes from the mouth of the University of Minnesota college 
student newspaper themselves. I think that should carry a lot 
of weight from these young people.
    I know that also there are a lot of folks who will maybe 
tout and gloss over some of the challenges. I have experienced 
that. Of major import, when time is short and urgency is great 
and you are doing elections in the polling place on election 
day, you will have lines. It is hard to guess the number of 
poll workers you need because you don't know exactly how many 
are coming.
    A personal instance for me in Minnesota was hearing on the 
news a polling place that had run out of ballots and people 
were there. I walked to the polling place. About 200 people, 
they had run out of ballots. I sent my staff person with a $20 
bill from my own pocket, and I said, ``Go get pens, because 
when the ballot gets here they are also out of pens.'' So we 
were able to pull that together. But I felt so bad that there 
were people because of this situation who didn't get to vote 
simply because we had election day registration and the polling 
place was flooded.
    Those are issues that are important. If we are going to 
have a let-everyone-vote measure, then let's make sure that 
everyone-is-eligible measure balances those two situations as 
well.
    In regards to some of the cases in Minnesota, we have the 
Coates city had 93 people falsely registering to vote. 
Fortunately, it was before election day, it was caught, and it 
was prevented.
    We had another deputy county administrator who told a 
polling place person, yes, a green card is okay to register to 
vote.
    We had a car trunk that was collected with over 300 voter 
registrations just stuffed in a trunk; and, again, that was 
caught by a routine traffic stop at the airport.
    Thirty-four non-U.S. citizens registered to vote in 
Minnesota, documented after HAVA, because we are required to 
verify things. Twelve of those also did vote. Those were turned 
in to the Department of Justice.
    Those are some of just the larger ones, and indeed two of 
those that were actually prosecuted. It is difficult to 
prosecute after an election.
    Thank you very much for the opportunity to be here.
    Ms. Lofgren. Thank you for your testimony.
    [The statement of Ms. Kiffmeyer follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.090
    
    [GRAPHIC] [TIFF OMITTED] T0987A.091
    
    [GRAPHIC] [TIFF OMITTED] T0987A.092
    
    [GRAPHIC] [TIFF OMITTED] T0987A.093
    
    Ms. Lofgren. Finally, we go to Mr. Rapoport.

                  STATEMENT OF MILES RAPOPORT

    Mr. Rapoport. Thank you very much, Chairman Lofgren.
    I am Miles Rapoport, and I currently serve as the President 
of Demos: A Network for Ideas and Action. Demos is a 
nonpartisan public policy center in New York, which has been 
dedicated since its founding in 2000 to the expansion of 
democratic participation. We have felt all along that Election 
Day Registration is one of the mechanisms we could use, one of 
the policies that we could adopt that would significantly 
enhance voter participation.
    I want to make mention of the fact that I have longer 
written testimony that I will summarize; and also that there 
are three reports, including Professor Lorraine Minnite's 
report.
    Ms. Lofgren. Without objection, those will be entered into 
the record.
    Mr. Rapoport. Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.094
    
    [GRAPHIC] [TIFF OMITTED] T0987A.095
    
    [GRAPHIC] [TIFF OMITTED] T0987A.096
    
    [GRAPHIC] [TIFF OMITTED] T0987A.097
    
    [GRAPHIC] [TIFF OMITTED] T0987A.098
    
    [GRAPHIC] [TIFF OMITTED] T0987A.099
    
    [GRAPHIC] [TIFF OMITTED] T0987A.100
    
    [GRAPHIC] [TIFF OMITTED] T0987A.101
    
    [GRAPHIC] [TIFF OMITTED] T0987A.102
    
    [GRAPHIC] [TIFF OMITTED] T0987A.103
    
    [GRAPHIC] [TIFF OMITTED] T0987A.104
    
    [GRAPHIC] [TIFF OMITTED] T0987A.105
    
    [GRAPHIC] [TIFF OMITTED] T0987A.106
    
    [GRAPHIC] [TIFF OMITTED] T0987A.107
    
    [GRAPHIC] [TIFF OMITTED] T0987A.108
    
    [GRAPHIC] [TIFF OMITTED] T0987A.109
    
    [GRAPHIC] [TIFF OMITTED] T0987A.110
    
    [GRAPHIC] [TIFF OMITTED] T0987A.111
    
    [GRAPHIC] [TIFF OMITTED] T0987A.112
    
    [GRAPHIC] [TIFF OMITTED] T0987A.113
    
    [GRAPHIC] [TIFF OMITTED] T0987A.114
    
    [GRAPHIC] [TIFF OMITTED] T0987A.115
    
    [GRAPHIC] [TIFF OMITTED] T0987A.116
    
    [GRAPHIC] [TIFF OMITTED] T0987A.117
    
    [GRAPHIC] [TIFF OMITTED] T0987A.118
    
    [GRAPHIC] [TIFF OMITTED] T0987A.119
    
    [GRAPHIC] [TIFF OMITTED] T0987A.120
    
    [GRAPHIC] [TIFF OMITTED] T0987A.121
    
    [GRAPHIC] [TIFF OMITTED] T0987A.122
    
    [GRAPHIC] [TIFF OMITTED] T0987A.123
    
    [GRAPHIC] [TIFF OMITTED] T0987A.124
    
    Mr. Rapoport. I think the single largest argument for 
election day registration has been discussed a lot, and that is 
that it increases voter participation. It seems a fundamental 
reality that many of us--and I served as Secretary of the State 
for the State of Connecticut for 4 years in the 1990s--have 
observed the precipitous drop in voting percentages that 
occurred in the early 1970s. This has been partly because we 
allowed 18-year-olds to vote, partly because of disillusion 
around Watergate, and we have never regained those levels. So 
we have actually nationwide a serious drop which now we are 
hoping to come and push back up a little bit.
    I think we also understand that people's lives are 
complicated and that the more you can make something convenient 
for people the more they will access it. The private sector 
understands this very well.
    When I was young, I used to get a paycheck every Friday 
afternoon at 2:30, race to the bank, stand in line for about an 
hour with all the other people who got their Friday paychecks, 
because you knew that if you didn't get your paycheck cashed on 
Friday, you didn't have any money for the weekend. I tell my 
son, who is sitting back here, that that is the way it used to 
be, and he looks at me like it is an Abraham Lincoln log cabin 
story.
    So, no self respecting bank would require people to take 
extra steps in order to get their money. But when it comes to 
voting we require people to register, in some cases, 30 days in 
advance.
    The turnout figures, the participation rates are clearly 10 
to 12 points higher in the States where they do have Election 
Day Registration. Not all of that can be attributed to Election 
Day Registration itself. I think the academic studies that 
Professor Leighley referred to, about 4 percent, with larger 
increases for certain parts of the population, are accurate.
    There are two corollary benefits to election day benefits 
beyond the increase in participation, which is, of course, 
first and foremost.
    One, it does reduce the problems with provisional ballots. 
There have been huge problems with provisional ballots on the 
counting. We know that a third of the provisional ballots in 
the 2004 Presidential election were not counted. The 
possibility of huge, lengthy battles about who was eligible to 
cast a provisional ballot and have it counted is a dramatic 
possibility.
    There are also, as Representative Ehlers mentioned, 
additional costs, but I don't think that has been a central 
focus here and doesn't need to be.
    The second corollary benefit is interesting, and I say this 
as a former candidate. I do believe that it widens and enriches 
the political debate that we will have. You are taught as a 
candidate only talk to people who are registered and on that 
list. If you go out knocking on doors, you walk right by a 
house even if people want to talk to you if they are not on 
that list. Those people are ignored as far as the political 
process is concerned. That is efficient as a candidate, but it 
is not very healthy for our democracy.
    I think we want to create a situation in which the 
campaigns and candidates talk to everyone, because everyone is 
a potential voter. I think that flow of information and flow of 
discussion would be much, much better.
    Let me deal with the arguments against Election Day 
Registration that have been mentioned. One has been the 
administrative complexity at the polls, where there will be 
difficulties. Clearly, as with any new policy, the poll workers 
need to be trained, the procedures need to be put in place, a 
separate desk or whatever needs to be set up for the 
registrants so they are not standing in line, creating lines. 
But that has been shown in every State that has had Election 
Day Registration, some for 30 years, to be entirely manageable.
    The second is the cost, where there clearly are additional 
costs of additional personnel. I think they are minor, and I 
think they are offset by the costs of hiring additional people 
to get the voters on the rolls where there is not Election Day 
Registration and the counting of provisional ballots 
afterwards.
    The most important argument that has been adduced has been 
the argument that will open the way to fraud, and I want to 
address that very directly. It is certainly a theoretical 
possibility. I don't think anybody could say, don't worry, 
there is no possibility whatsoever. There are problems in our 
current system in as many States without Election Day 
Registration as there are in States with. We have had problems 
in Connecticut, mostly minor, mostly with absentee ballots. But 
the overwhelming thrust of the evidence here is that it simply 
has not happened and is very unlikely to happen.
    I think that the study by Professor Minnite documents that. 
She looked at 4,000 news reports for all six EDR States over 
the period of 1999 to 2005, found only 10 incidents that were 
even substantive and investigated and prosecuted, and only one 
of those involved an impersonation and that was in New 
Hampshire where a son voted for his father.
    So I think that the fraud issue is a potential one. We are, 
as elected officials, election officials, or people who are 
interested in our elections, having to balance. You will have 
the responsibility to balance. But we have a situation here 
where I think there is very little evidence that fraud will 
increase, a huge amount of evidence that this will draw 
millions of new people into the polls; and, on balance, for the 
health of our democracy, it seems that Election Day 
Registration would be a very, very good policy to adopt 
nationwide as well as State by State.
    Ms. Lofgren. Thank you very much for your testimony.
    [The statement of Mr. Rapoport follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.125
    
    [GRAPHIC] [TIFF OMITTED] T0987A.126
    
    [GRAPHIC] [TIFF OMITTED] T0987A.127
    
    [GRAPHIC] [TIFF OMITTED] T0987A.128
    
    [GRAPHIC] [TIFF OMITTED] T0987A.129
    
    [GRAPHIC] [TIFF OMITTED] T0987A.130
    
    [GRAPHIC] [TIFF OMITTED] T0987A.131
    
    [GRAPHIC] [TIFF OMITTED] T0987A.132
    
    [GRAPHIC] [TIFF OMITTED] T0987A.133
    
    [GRAPHIC] [TIFF OMITTED] T0987A.134
    
    [GRAPHIC] [TIFF OMITTED] T0987A.135
    
    [GRAPHIC] [TIFF OMITTED] T0987A.136
    
    [GRAPHIC] [TIFF OMITTED] T0987A.137
    
    [GRAPHIC] [TIFF OMITTED] T0987A.138
    
    [GRAPHIC] [TIFF OMITTED] T0987A.139
    
    [GRAPHIC] [TIFF OMITTED] T0987A.140
    
    [GRAPHIC] [TIFF OMITTED] T0987A.141
    
    Ms. Lofgren. Thanks to all of you for very interesting 
testimony.
    We now go to the time in our hearing when we have a chance 
to ask questions; and I will turn first to my colleague from 
California who represents San Diego, Susan Davis.
    Mrs. Davis of California. Thank you, Madam Chair.
    I appreciate your all being here. Thank you very much.
    One question that really occurred to me while you were 
talking, have we done very much tracking of those people who 
vote in same-day registration, whether or not they continue to 
return to the polls for subsequent elections? Do we have any 
data on that, as far as you know?
    Ms. Leighley. I am not aware of any tracking in terms of 
panel data on individuals. I would note, we do have some work 
which suggests that the key is getting those people in the door 
the first time; and at that point the political interest is 
enhanced. Mobilization is enhanced. They have entered in. So 
our best guess, from fairly strong theoretical arguments, is 
that there would likely be a subsequent effect.
    Mr. Tokaji. If I could just add one thing. There is also 
evidence that the benefits from election day registration in 
terms of increasing turnout do persist over time, specifically 
from the three States that Professor Leighley mentioned in her 
testimony earlier.
    Ms. Kiffmeyer. Representative Davis, Chairman Lofgren, I 
believe that there is an effect that, no matter how you 
register to vote, no matter where your first time voting is, 
that once you begin that you are more likely to continue. But I 
don't think it makes it any more so, as an opinion, how you get 
registered or which day. But I do think that it does make a 
difference, and that is why we very much focused on making sure 
that those young students in Minnesota were registered and had 
those opportunities right away. First-time voters are more 
likely to continue as they go along, but I think the 
methodology where they register isn't proven to be as big a 
factor.
    Mrs. Davis of California. Thank you.
    You are capturing, though, a lot more people. So I think 
that you would suggest that if they continue to be voters that 
you certainly would have them when you might not have 
otherwise. And I think we still have questions about why we 
weren't able to get to them in 30 days prior, but that is 
another issue.
    One of the things I think we would all agree on is no fraud 
is acceptable. But I think we have also talked about the 
suppression of voting issues as well. And in your experience, 
is there an acceptable level in some ways? We know that there 
is going to be problems, but they seem to be rather minimal. 
And we know that there is tremendous suppression that can exist 
in communities just as well. I mean, is that something that in 
your positions you have discussed?
    Because it would seem to me that, while we don't like it, 
there may be an acceptable level. But it is also clear that--
what are the red flags that go up when you know that something 
is really going wrong? And maybe we need to kind of look at 
what are those red flags. And, again, how would you act to 
secure whether it is same-day registration or even registration 
generally that perhaps we are not addressing?
    Mr. Tokaji. Let me take the position that no voting fraud 
is ever acceptable. I think we are in agreement on that point.
    I would also suggest that, no matter what kind of system 
you have, there are always going to be a few people out there 
who are trying to cheat.
    I think it is important when we are talking about fraud to 
be clear about what we mean and in particular separate it into 
three categories. There is, first of all, the voter who goes to 
the polls on election day and tries to cheat, pretending to be 
someone they are not. That is extremely rare. A bit more 
common, though also rare, is people trying to cheat through 
absentee ballots; and if you are an individual voter trying to 
cheat, that is the way you are most likely to pursue. Also rare 
is the third kind, but again a bit more common than the first, 
which is insider fraud, people on the inside stuffing ballots 
or things like that.
    What should be emphasized is that the risks of fraud 
arising from election day registration are very small. Because 
if voters are going to try to cheat, they more often than not 
do it through absentee ballots, not through going into the 
polls on election day, pretending to be someone they are not or 
otherwise trying to cheat. And that is demonstrated by 
Professor Minnite's study.
    So I don't think there is any acceptable level of fraud, 
but I also don't think that the evidence supports the 
conclusion that election day registration increases it. It is 
clear that election day registration does increase turnout, and 
this is where we have a huge problem in our society that we 
have not satisfactorily addressed. Not nearly enough people 
come out to vote; and, moreover, certain groups, including 
racial minorities, poor people, younger people, people with 
disabilities, are underrepresented in our voting polity. And 
that is a serious problem. Election day registration is the 
best way I know of, based on the social science evidence, to 
increase registration and participation through election 
administration.
    Mr. Rapoport. I would add a quick comment on that. It seems 
to me that if we make the assumption that we want to guard 
against fraud as effectively as possible, there are still two 
paths to go. One is to create an election system that works as 
smoothly and as efficiently and where we give the prosecuting 
authorities, the election enforcement commissions in the States 
and the Attorney General in the State, the resources that they 
need to really actively go and search out the fraud, look at it 
in a case-by-case basis, and do it.
    The second path is to sort of tamp down on the process of 
allowing people to vote in a more general way, catching the 
fraud but also I think limiting significantly the amount of 
people that will vote.
    And I think the first path we have the capacity to do with 
the digitized statewide voter lists, with increasing the 
sophistication of the voter identification processes and 
mechanisms. I think those are the better ways to go.
    Ms. Lofgren. The gentlelady's time is expired.
    I turn now to the ranking member, the gentleman from 
California, Mr. McCarthy.
    Mr. McCarthy. Thank you, Madam Chair.
    I want to thank the whole panel. I appreciate all the 
testimony.
    Like Congresswoman Davis said, we want to make it as easy 
as possible for people to vote, and we have evolved so far in 
everything we do in America. You think today--and Mrs. Davis 
and I had a conversation just the other day about other 
countries and how you see the turnout so much larger than 
America, and people waiting in line, people having to walk to 
the polls. And we could vote absentee. States let you vote 
early out there for 2 weeks at a time in shopping centers and 
everything else.
    But one testimony struck me very unique, Ms. Kiffmeyer, 
taking from the whole perspective. Because in this committee we 
are also looking at contested elections. We have one issue in 
Florida 13. So we are looking at, is there an undervote or 
whatever going through? But do we ever also look at, if we are 
going to do a complete accounting, if we are looking at just 
the final product, was this person actually able to vote or 
should they have?
    And I do have a real concern in this whole debate of 
whether it be a provisional or not. Because once it is inside 
the ballot, you don't know which ballot it was. There is no way 
of checking.
    And when you look at how close these elections are, then 
you have the whole argument about, are these people informed? 
Are we not allowing them to be more informed? The more we get 
in voter registration, that is how people use the voter rolls. 
Some people use them for wrong reasons. But that is the main 
reason why we are able to get information out.
    My question would be to Ms. Kiffmeyer, have you found--
because you have had same-day voter for quite some time, did 
you find with the college students--and you put about the ID 
there. Did you find any fraud within there? That people from 
other States, because--coming in there, going to college, 
voting back home and also voting there as well?
    Ms. Kiffmeyer. Representative Lofgren and Representative 
McCarthy, certainly we have cases. There are instances of 
convictions. But what we have found, though, is that the tools 
that we need in order to verify some of these things are 
nonexistent. In other words, is there fraud is one question. 
The second thing is, do you have a system to catch it? Do you 
have a system that can give you that degree of certainty?
    When you have students coming from other States and voting 
in your State, there is no ID requirement. They come in on 
election day. The ballot is live and counted. Then, afterwards, 
a nonforwardable postcard is sent to them. What happens to that 
nonforwardable postcard? I mean, those are the kinds of 
researches.
    Newspaper reports, by the time things get to a newspaper, 
there is lots of stuff going on that never hit the newspaper. 
You need to dig a little deeper and also be wiser about the 
actual system and what is really happening to know what to do 
there.
    But those tools to verify that those students--did they 
vote in their home State? Did they vote also in Minnesota? Can 
we know? And shouldn't we know?
    Where are the tools that enable us to give what I believe 
we owe to the American people? I mean, we do it on the side of 
the ballots. We have the recounts and we have all this and we 
have attorneys and we have all this stuff going on. But it 
seems like on this side, when it comes to registration, there 
is almost a sense of faith-based trust in regards to 
registration, that, ergo, they registered, ergo, it must be 
true, without the same level of scrutiny that we give in the 
ballots themselves.
    Mr. McCarthy. We are pretty much leaving the door unlocked, 
like your analogy earlier, because we don't have the 
information to even check to see about the accuracy within 
there.
    I know HAVA has--if you are a first-time voter and you 
register, first-time registered and first-time voter, they make 
you form a check of an ID or you get mailed it back. Would you 
think, if a person goes to the ballot and they are first-time 
registering to vote, should there be any other check there? 
Should people show an ID?
    Ms. Kiffmeyer. Well, certainly when you have your check and 
you go to cash your check, in most every instance you are 
required to show some sort of identification to tie those two 
records together. In other words, here is my name on the roster 
and here is my name on this ID, and you tie those things 
together. That is just a common-sense thing that is used 
everywhere else in our society. And the only place it is wholly 
absent, many times, is in the polling place on election day, 
where you are getting a vote, a real live ballot.
    Mr. McCarthy. Because it is the only registering by mail 
the first time that we do that check.
    Now, the only other question I have, maybe to Mr. Rapoport, 
would you support showing an ID? I know a lot of people use 
driver's license. I come from a State that first proposed 
giving driver's license to illegals. It got repealed. Where is 
your position on that?
    Mr. Rapoport. I think it is reasonable for a first-time 
registrant to show identification. I think the question 
becomes, ``what are the acceptable forms of identification?"
    We negotiated this very carefully when I was the chairman 
of the Government Administration and Elections Committee in the 
Connecticut legislature about what form of ID. And where we 
ended up was a list of acceptable IDs, driver's license 
probably the most used, electronic benefit transfer cards, 
student IDs, but anything that has both a signature and either 
a picture or an address. And then the last, the sort of fail-
safe, is an attestation requirement where a voter can, if they 
are absolutely lacking ID, sign an affidavit stating--under 
penalty of perjury stating I am who I am. And if someone else 
were to come and vote there, under that name you have at least 
the beginnings of a signature to do it.
    I will say that in the 15 years since that system has been 
enacted in Connecticut, there has been not a single prosecution 
for false identification. There have been election fraud issues 
in Connecticut. They have been entirely in the misuse of 
absentee ballots.
    Mr. McCarthy. One quick follow-up. I know that was 15 years 
ago. Would you still have that opinion now, with the debate 
going on about illegals being able to have a driver's license? 
Would a driver's license still be okay for you for the IDing, 
for that purposes?
    Mr. Rapoport. I imagine that it would. I think there 
probably would be some differentiation in the license.
    But I also say this, that I think that the people who have 
studied this generally feel that people who are not citizens 
and who are subject to deportation or subject to real problems 
are very unlikely to expose themselves by coming out to vote. I 
think it is hard to get them to respond to many things at all.
    Mr. McCarthy. Madam Chair, I do want to thank you for--it 
must have been our miscommunication that you did from 6-4. And 
if we are moving beyond three in the majority and one on the 
minority for witnesses, it would be my intent to withdraw my 
rule 11, and I thank you for that.
    Ms. Lofgren. We should have a discussion of this at a later 
time.
    Mr. Ellison is recognized for 5 minutes.
    Mr. Ellison. Thank you, Madam Chair; and let me thank all 
the panelists. And I hope you all will forgive me for thanking 
Ms. Kiffmeyer to be here in particular. She is from Minnesota, 
and she and I worked together over the years. She could report 
how we showed up in places around the district and tried to 
encourage people to go vote, and I want to thank you for the 
work you did then and for coming out today.
    Professor Tokaji, one question I want to ask you is there 
seems to be sort of a dispute in the statistics about whether 
or not same-day voter registration increases voter turnout. 
Secretary Kiffmeyer said that we already had high voter turnout 
in Minnesota, and so same-day voter registration didn't really 
change that. What if we look at it in a more broad sense, look 
at the more comprehensive look at all the States that have it? 
Can you say with some authority that it actually does increase 
voter turnout?
    Mr. Tokaji. I say with absolute confidence that election 
day voter registration increases turnout, and I believe I have 
looked at all the social science evidence that exists on this 
subject. I think Secretary of State Ritchie explained one of 
the blips in Minnesota, which had to do with the fact that we 
were lowering the voting age at around the same time as some of 
those studies. But there is no reasonable basis for disputing, 
based on the evidence that election day registration increases 
turnout. It is--I would say it is a social scientific fact, 
just as evolution is a natural scientific fact, is at that 
level of clarity. There is reason----
    Mr. Ellison. There are people who debate that, too.
    Mr. Tokaji. There are always going to be people who debate 
certain things. There may be some reason for quibbling about 
exactly how much you think it increases turnout, but there is 
no reasonable basis on the evidence for questioning that it 
increases turnout.
    Mr. Ellison. Thank you, Professor; and thank you. Everybody 
had an excellent presentation I want to say.
    What about your thoughts on this, Professor Leighley? Do 
you agree or concur with Professor Tokaji on this issue?
    Ms. Leighley. I do. This is one of the few places where, in 
studying electoral behavior in the United States, there is a 
clear unanimity in all of the studies about increases that 
result from election day registration; and it is based on 
empirical evidence, things that we actually observe in the 
world, as opposed to concerns or questions or allegations.
    Mr. Ellison. How about you, Secretary Rapoport? Do you 
concur with Professor Leighley and Professor Tokaji?
    Mr. Rapoport. I do, and I think the evidence is consistent. 
I want to call the committee's attention to a chart which is 
actually not in what I introduced, but I can leave it and 
copies can be made.
    Mr. Ellison. Can I offer unanimous consent that it be 
introduced?
    Ms. Lofgren. Yes. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T0987A.205
    
    [GRAPHIC] [TIFF OMITTED] T0987A.206
    
    [GRAPHIC] [TIFF OMITTED] T0987A.207
    
    [GRAPHIC] [TIFF OMITTED] T0987A.208
    
    [GRAPHIC] [TIFF OMITTED] T0987A.209
    
    [GRAPHIC] [TIFF OMITTED] T0987A.210
    
    [GRAPHIC] [TIFF OMITTED] T0987A.211
    
    [GRAPHIC] [TIFF OMITTED] T0987A.212
    
    [GRAPHIC] [TIFF OMITTED] T0987A.213
    
    [GRAPHIC] [TIFF OMITTED] T0987A.214
    
    [GRAPHIC] [TIFF OMITTED] T0987A.215
    
    [GRAPHIC] [TIFF OMITTED] T0987A.216
    
    [GRAPHIC] [TIFF OMITTED] T0987A.217
    
    [GRAPHIC] [TIFF OMITTED] T0987A.218
    
    [GRAPHIC] [TIFF OMITTED] T0987A.219
    
    [GRAPHIC] [TIFF OMITTED] T0987A.220
    
    [GRAPHIC] [TIFF OMITTED] T0987A.221
    
    [GRAPHIC] [TIFF OMITTED] T0987A.222
    
    [GRAPHIC] [TIFF OMITTED] T0987A.223
    
    [GRAPHIC] [TIFF OMITTED] T0987A.224
    
    [GRAPHIC] [TIFF OMITTED] T0987A.225
    
    [GRAPHIC] [TIFF OMITTED] T0987A.226
    
    [GRAPHIC] [TIFF OMITTED] T0987A.227
    
    Mr. Rapoport. Thank you very much, Madam Chair.
    We did a chart just to look at this very question, about 
were States higher anyway and does Election Day Registration 
make a difference? And what we found, that if you go back to 
1968 to the Presidential elections, all six of the States that 
had election day registration in 2002 were indeed higher than 
the national average by anywhere from 6 to 9 points. But once 
they adopted election day registration, it went up to 12 to 13 
and 14 and, in some cases, 17 and 18 percent higher. So I think 
there is a very clear distinction to be made.
    Secretary Kiffmeyer is correct, that some of the States 
already had very high voting traditions. But there is no 
question that EDR has significantly increased this. And I will 
leave this chart with the committee.
    Mr. Ellison. So, Secretary Kiffmeyer, why are these 
distinguished, learned individuals wrong?
    Ms. Kiffmeyer. I don't think I take a position that way. I 
think that what I am looking at----
    Mr. Ellison. Excuse me. I am sorry. So you agree with them.
    Ms. Kiffmeyer. I don't think that is a point that I was 
making.
    Mr. Ellison. Well, do you agree with them?
    Ms. Kiffmeyer. I think that they are giving a lot of facts 
and a lot of background that--especially when you get into some 
of these studies that they have done, such as the study done by 
Miles, and when you are reporting another study where they were 
using newspaper reports to do their study as a basis for what 
you had found--so I think all of their analysis, and I think 
that, actually----
    Mr. Ellison. Madam Secretary, forgive me for my 
interruption. I only have 5 minutes. Of course, I would never 
interrupt you, as you know, I respect you so much. But do you 
disagree with them or do you agree with them?
    Ms. Kiffmeyer. I think I don't have all their studies and 
facts and figures.
    Mr. Ellison. So you would say that you don't know?
    Ms. Kiffmeyer. Well, I haven't looked at all of their 
studies and all of their research.
    Mr. Ellison. Well, you would have to agree, disagree, or 
you don't know.
    Ms. Kiffmeyer. I think I have stated, though, that they 
have given a lot of facts and a lot of information, and you are 
asking me to just ratify all of their statements and their 
opinions----
    Mr. Ellison. No, I am not asking you to ratify. You could 
say they are wrong and they have got it all wrong and they 
looked at the data wrong.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Ellison. Ten more seconds.
    Ms. Lofgren. By unanimous consent, 10 more seconds. But 
since you and Ms. Kiffmeyer know each other very well, you can 
also finish this at a later date.
    Mr. Ellison. That is right. Madam Chair is absolutely 
correct. I was just hoping to get Secretary Kiffmeyer on the 
record taking a position on this issue. But if--but I--it may--
one last chance to see which----
    Ms. Lofgren. I think Ms. Kiffmeyer has probably concluded 
her----
    Mr. Ellison. Okay.
    Ms. Lofgren. And we will now turn to Mr. Ehlers.
    Mr. Ehlers. It is very tempting to satisfy Mr. Ellison's 
request by just saying they are wrong and get it over with.
    But, no, just expanding on that a bit. I just cast my lot 
with Ms. Kiffmeyer. I have the same hands-on experience that 
she has had. I have seen it. And I respect these gentlemen. 
Since I am supposed to be an egghead myself, I certainly don't 
want to castigate any of the witnesses for their research. But 
there is something to be said for the hands-on, having to deal 
with the problem on election day, which is a very frantic time 
for all election workers, and deal with all the problems that 
come up. And there are lots of them, innumerable problems that 
come up. You can't describe all of them.
    But I will certainly cast my lot with Ms. Kiffmeyer and the 
practicalities and the difficulties that you encounter in this 
situation. And that doesn't mean that I am against same-day 
registration. I am just cautioning everyone here that it opens 
multiple opportunities for fraud. And I am not talking so much 
about the fraud on the part of an individual. I am talking 
about organized fraud. Bussing, gathering people up and--well, 
I shouldn't use the term bus. What I have seen is vans, not 
buses. But picking up people and getting them to vote when they 
shouldn't vote and telling them that it is legal for them to 
vote when in fact it is not legal for them to vote.
    You can't just have the pie-in-the-sky attitude. This is 
great. It improves turnout. You have to look at all aspects of 
it, and that is what I want to thank Ms. Kiffmeyer for doing, 
because she has given us those aspects and I respect that.
    Thank you.
    Ms. Lofgren. The gentleman yields back.
    I just want to ask a couple of questions, and then we will 
thank you all and go to our floor vote.
    We talked earlier about the provisional ballots and that 
many of them are not counted. Now, maybe--and we don't know why 
they are not counted. But, for the two professors, have you 
given any thought to whether there should be some kind of 
nationwide standard for how provisional ballots are dealt with? 
And, if so, what those standards ought to be?
    Mr. Tokaji. Let me say a couple things on this.
    First, I am actually someone who is generally very cautious 
about recommending that we implement national standards when it 
comes to the administration of elections. Our elections have 
traditionally been run at the State and local level; and I 
think that, generally speaking, our State and local officials 
do a fantastic job.
    Ms. Lofgren. I do, too.
    Mr. Tokaji. I do think that there is some place for the 
Federal Government here. Frankly, I think that HAVA should have 
been written to make clear that people who mistakenly cast a 
provisional ballot in the wrong precinct should have those 
ballots counted, at least for races they were entitled to vote 
in. We do have statistical evidence which I have cited in my 
testimony that States that do count those ballots count a much 
higher percentage of provisional ballots.
    Beyond that, I would be wary of too much Federal 
legislation on this question. I do think it is essential, 
however, that every State have clear standards for what 
provisional ballots should count and that those standards and 
procedures as well be followed uniformly throughout the State 
so as to avoid an equal protection problem.
    Ms. Lofgren. Professor--Mr. Rapoport, you have made a 
multi-decade study of these issues. Do you have----
    Mr. Rapoport. Yes. I think that the absence of national 
standards on the counting of provisional ballots and on several 
other kinds of issues is a real problem. So I would, despite 
having been a State-elected official and not wanting too much 
Federal control, I think that voters in all jurisdictions are 
entitled to know that their provisional ballots will be counted 
more or less in the same way. And it is clear from the 
testimony that has been given here that one of the real virtues 
of Election Day Registration, if it were adopted, would be to 
minimize the problems with provisional ballots. I think that 
would be a good thing as well.
    Ms. Lofgren. Ms. Kiffmeyer, you were President of the 
Secretaries of States Association, and I know the Secretaries 
of State don't like Federal interference. On the other hand, 
there is an equal protection issue if there is wide variation. 
What would your thoughts be on some kind of national standard 
that we work with the Secretaries of States to develop?
    Ms. Kiffmeyer. Well, Madam Chairwoman and members of the 
committee, one of the things you saw in the implementation of 
HAVA was there was a standard in regards to the equipment. But 
they also gave a methodology by the standards board, which was 
made up of local and State election officials, to work together 
to review those, and under the EAC. And so I think there was a 
methodology there that enabled the States and locals to do 
that.
    It was interesting, it was very important to us to make the 
issue that it was still up to the States to voluntarily comply 
with those standards. Now, interesting enough, all 50 States 
have. Why? Because they have had input. They have been able to 
establish that. And it was made up of those who actually 
administer elections.
    So I think in that particular case you see that, even 
though it was voluntary, the heart and the desire to do good 
elections--as a matter of fact, making it not voluntary would 
have actually put a big resistance to the whole situation. So 
that I think is an example.
    I don't know. I think that, really, we don't have Federal 
elections. We have State elections for Federal officers.
    Ms. Lofgren. I would just like to ask Mr. Tokaji, you have 
done so much research on this. When I registered to vote in 
California a long time ago, it was before we had postcard 
registration, but now that is how everybody registers that way. 
And you just fill it out and sign it, and there is no--you 
don't show up anywhere. You don't show any ID. And it sounds to 
me that what is being proposed on election day acts as a much 
higher standard. You have to show up in person and sign it. It 
is a lot more rigorous than what California has. Is that just 
wrong?
    Mr. Tokaji. I think you are exactly right, Madam Chair. And 
a couple of other social scientists have made precisely that 
point, that when you register on election day you are actually 
appearing before someone in person, representing that you are 
who you say you are, signing a statement under penalty of 
perjury that you are and providing some sort of identifying 
information.
    When things go through the mail, there are all sorts of 
opportunities--I don't think they happen very often but at 
least opportunities--for improprieties that don't exist when 
someone is doing it in person.
    Ms. Lofgren. My time has expired. But I will just say that 
this whole issue of--I just have to make this statement. 
Because, in addition to chairing the election subcommittee, I 
chair the Immigration Subcommittee in the Judiciary Committee. 
And all that we have learned--I mean, people who are 
undocumented, they are risking their lives crossing the desert 
to get a job, they are not risking their lives to come over and 
vote. It is a whole different dynamic. And once you are here, 
they are laying low. They do not want to be found out.
    So I just think it is important to state that. There is no 
evidence to support that.
    But I will get off my soapbox and thank all four of you for 
being here today. We have 5 legislative days to pose additional 
questions. If we do that, we would ask that you try and respond 
as promptly as possible.
    A lot of people don't realize that the witnesses who come 
before our committees are volunteers and come here just to help 
our country by sharing their expertise; and so we thank you 
very much, each of you, for doing that.
    And this hearing is now adjourned.
    [Information follows:]
    [Whereupon, at 1:24 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T0987A.142
    
    [GRAPHIC] [TIFF OMITTED] T0987A.143
    
    [GRAPHIC] [TIFF OMITTED] T0987A.144
    
    [GRAPHIC] [TIFF OMITTED] T0987A.145
    
    [GRAPHIC] [TIFF OMITTED] T0987A.146
    
    [GRAPHIC] [TIFF OMITTED] T0987A.147
    
    [GRAPHIC] [TIFF OMITTED] T0987A.148
    
    [GRAPHIC] [TIFF OMITTED] T0987A.149
    
    [GRAPHIC] [TIFF OMITTED] T0987A.150
    
    [GRAPHIC] [TIFF OMITTED] T0987A.151
    
    [GRAPHIC] [TIFF OMITTED] T0987A.152
    
    [GRAPHIC] [TIFF OMITTED] T0987A.153
    
    [GRAPHIC] [TIFF OMITTED] T0987A.154
    
    [GRAPHIC] [TIFF OMITTED] T0987A.155
    
    [GRAPHIC] [TIFF OMITTED] T0987A.156
    
    [GRAPHIC] [TIFF OMITTED] T0987A.157
    
    [GRAPHIC] [TIFF OMITTED] T0987A.158
    
    [GRAPHIC] [TIFF OMITTED] T0987A.159
    
    [GRAPHIC] [TIFF OMITTED] T0987A.160
    
    [GRAPHIC] [TIFF OMITTED] T0987A.161
    
    [GRAPHIC] [TIFF OMITTED] T0987A.162
    
    [GRAPHIC] [TIFF OMITTED] T0987A.163
    
    [GRAPHIC] [TIFF OMITTED] T0987A.164
    
    [GRAPHIC] [TIFF OMITTED] T0987A.165
    
    [GRAPHIC] [TIFF OMITTED] T0987A.166
    
    [GRAPHIC] [TIFF OMITTED] T0987A.167
    
    [GRAPHIC] [TIFF OMITTED] T0987A.168
    
    [GRAPHIC] [TIFF OMITTED] T0987A.169
    
    [GRAPHIC] [TIFF OMITTED] T0987A.170
    
    [GRAPHIC] [TIFF OMITTED] T0987A.171
    
    [GRAPHIC] [TIFF OMITTED] T0987A.172
    
    [GRAPHIC] [TIFF OMITTED] T0987A.173
    
    [GRAPHIC] [TIFF OMITTED] T0987A.174
    
    [GRAPHIC] [TIFF OMITTED] T0987A.175
    
    [GRAPHIC] [TIFF OMITTED] T0987A.176
    
    [GRAPHIC] [TIFF OMITTED] T0987A.177
    
    [GRAPHIC] [TIFF OMITTED] T0987A.178
    
    [GRAPHIC] [TIFF OMITTED] T0987A.179
    
    [GRAPHIC] [TIFF OMITTED] T0987A.180
    
    [GRAPHIC] [TIFF OMITTED] T0987A.181
    
    [GRAPHIC] [TIFF OMITTED] T0987A.182
    
    [GRAPHIC] [TIFF OMITTED] T0987A.183
    
    [GRAPHIC] [TIFF OMITTED] T0987A.184
    
    [GRAPHIC] [TIFF OMITTED] T0987A.185
    
    [GRAPHIC] [TIFF OMITTED] T0987A.186
    
    [GRAPHIC] [TIFF OMITTED] T0987A.187
    
    [GRAPHIC] [TIFF OMITTED] T0987A.188
    
    [GRAPHIC] [TIFF OMITTED] T0987A.189
    
    [GRAPHIC] [TIFF OMITTED] T0987A.190
    
    [GRAPHIC] [TIFF OMITTED] T0987A.191
    
    [GRAPHIC] [TIFF OMITTED] T0987A.192
    
    [GRAPHIC] [TIFF OMITTED] T0987A.193
    
    [GRAPHIC] [TIFF OMITTED] T0987A.194
    
    [GRAPHIC] [TIFF OMITTED] T0987A.195
    
    [GRAPHIC] [TIFF OMITTED] T0987A.196
    
    [GRAPHIC] [TIFF OMITTED] T0987A.197
    
    [GRAPHIC] [TIFF OMITTED] T0987A.198
    
    [GRAPHIC] [TIFF OMITTED] T0987A.199
    
    [GRAPHIC] [TIFF OMITTED] T0987A.200
    
    [GRAPHIC] [TIFF OMITTED] T0987A.201
    
    [GRAPHIC] [TIFF OMITTED] T0987A.202
    
    [GRAPHIC] [TIFF OMITTED] T0987A.203
    
    [GRAPHIC] [TIFF OMITTED] T0987A.204
    

</pre></body></html>
